                              SENSITIVE BUT UNCLASSIFIED




                    UNITED STATES DEPARTMENT OF STATE
                AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-13-48A                                   Office of Inspections                                September 2013




                                Inspection of
                           Embassy Moscow and
                          Constituent Posts, Russia




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2012 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instances of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Acting Inspector General




                                        ii
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                                 Table of Contents
Key Judgments                                                  1
Context                                                        3
Executive Direction                                            4
Policy and Program Implementation                              9
  Political Section                                            9
  Economic Section                                            10
  Environment, Science, Technology, and Health Section        11
  Law Enforcement Section                                     12
  Record E-mail Products                                      13
  Public Affairs Section                                      13
  Consular Operations                                         18
Resource Management                                           28
  Management Overview                                         29
  Financial Management                                        30
  International Cooperative Administrative Support Services   32
  Human Resources                                             33
  General Services                                            36
  Facilities Management                                       40
  Information Technology and Information Management           41
Quality of Life                                               44
Management Controls                                           49
List of Recommendations                                       53
List of Informal Recommendations                              58
Principal Officials                                           62
Abbreviations                                                 63




                                      iii
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Key Judgments
   •   Embassy Moscow is effectively advancing a broad policy agenda important to the highest
       levels of the U.S. Government. The interagency team, under the leadership of the
       Ambassador and deputy chief of mission, is strong and cohesive.

   •   The embassy is skillfully carrying out public diplomacy programs in an increasingly
       difficult environment, where the Russian Government has expanded its control over the
       news media, harassed nongovernmental organizations, and pressured partner institutions
       to limit cooperation on U.S. Government-sponsored programs.

   •   The consular section has reduced visa wait times but needs to increase productivity,
       improve visa adjudication consistency, and enhance professional development
       opportunities for first- and second-tour officers. The consular section did a good job
       assisting prospective U.S. parents in coping with the termination of adoptions of Russian
       children.

   •   Embassy reporting provides Washington with valuable information and analysis. It is
       balanced, well sourced, and relevant.

   •   Embassy sections need to improve communication and coordination with the three
       consulates general, particularly the more remote consulates general in Yekaterinburg and
       Vladivostok. The embassy also needs a more structured first- and second-tour program
       that includes consulate personnel.

   •   The embassy is working well with the Department of State to begin the construction of
       office facilities in Moscow and St. Petersburg to replace obsolete buildings.

   •   The management section has strong leadership and delivers good customer service.
       However, it needs to correct management controls weaknesses, some of which have
       persisted since the last inspection.

   •   The embassy could save $2.7 million annually by leasing or selling units at the remote
       Rosinka compound in Moscow and better managing its inventory of leased properties.


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the Office of Inspector General (OIG) team did not identify problems that need to
be corrected.

The inspection took place in Washington, DC, between April 25 and May 10, 2013; in Moscow,
Russia, between May 13 and June 27, 2013; in Yekaterinburg, Russia, between May 20 and 23,
2013; in St. Petersburg, Russia, between May 28 and June 3, 2013; and in Vladivostok, Russia,
between May 28 and June 3, 2013. Ambassador Richard E. Hecklinger (team leader), Arne B.
Baker (deputy team leader), William J. Booth, Karen K. Davidson, Darren T. Felsburg, Martha
Fikru, Alcy R. Frelick, Barry J. Langevin, Kenneth M. Hillas, James R. Pritchett, Michael E.
                                       1
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Parks, Charles A. Rowcliffe, Terry L. Rusch, Scott N. Thayer, Dennis Thatcher, Steven J. White,
and Barbara A. Zigli conducted the inspection.




                                       2
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Context
        The U.S.-Russia bilateral relationship is important, complex, and challenging. The
embassy is involved in diplomatic activity that spans the gamut of U.S. interests and attracts
attention at the highest levels of the U.S. Government. With a seat on the United Nations
Security Council and membership in the G8 and G20 summits, Russia plays a role in almost
every important multilateral issue. Russia and the United States together control 90 percent of
the world’s nuclear weapons and share a joint interest in reducing the risk of nuclear conflict.
Russian cooperation is essential in preventing the proliferation of weapons of mass destruction,
combating terrorism, and resolving regional conflicts. Russia’s population of 143 million
constitutes the highest per capita disposable income market in the BRICS (Brazil, Russia, India,
China, South Africa) group of emerging economies, and its growing middle class offers a market
for U.S. business. Its hydrocarbon resources rank among the world’s largest. Over the last 3
years, U.S. exports to Russia nearly doubled to $10.7 billion and nonimmigrant visa applications
increased 66 percent.

        Despite differences on core policy issues such as Syria and missile defense, the United
States and Russia cooperate in areas of shared interest. The 2009 reset in bilateral relations was
intended to promote a more substantive, less polemical dialogue and included formation of the
U.S.-Russia Bilateral Presidential Commission, with 20 working groups focused on topics
ranging from innovation to defense relations. The commission’s work facilitated negotiation of a
new strategic arms treaty, paved the way for Russia’s entry into the World Trade Organization,
and promoted development of new United Nations sanctions against Iran and North Korea.

        However, with the return to office of President Putin in 2012, the U.S.-Russia
relationship became more difficult. The Russian Government terminated bilateral agreements
related to nonproliferation and adoptions of Russian children by U.S. citizens. Restrictions on
Russian civil society, media, and independent political groups and a crackdown on dissent after
street protests in 2012 led to heightened concerns about Russia’s commitment to human rights
and democracy. Some nongovernmental organizations have become targets of police raids and a
requirement to register as “foreign agents” if they receive foreign funding. At the insistence of
the Russian Government, the U.S. Agency for International Development (USAID) ceased
operations in October 2012. The September 2013–June 2014 period will be important in U.S.-
Russia relations because Russia will host G20 and U.S.-Russia summits in 2013 and the Sochi
Winter Olympics and the G8 summit in 2014.

         In addition to the embassy, Mission Russia includes consulates general in St. Petersburg,
                                                                               [Redacted] (b) (5), [Redacted] (b) (7)(F)
Yekaterinburg, and Vladivostok and a consular agency in Yuzhno-Sakhalinsk.
[Redacted] (b) (5), [Redacted] (b) (7)(F)                                          Across Mission
Russia, employees face intensified pressure by the Russian security services at a level not seen
since the days of the Cold War. In May 2013, the embassy received host country permission to
obtain land for a new consulate office building in St. Petersburg. The mission employs 1,279
staff, including 301 U.S. direct-hire positions and 934 locally employed (LE) staff positions from
35 U.S. Government agencies.




                                        3
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Executive Direction
        Embassy Moscow is doing an excellent job representing U.S. interests. All Washington
agencies surveyed by the OIG team were pleased with the support and advice they receive from
the embassy in advancing U.S. policy goals. They complimented embassy personnel for their
expertise, as well as for their hard work and dedication, which they found to be especially
impressive in light of the challenging environment in which the embassy operates. Like their
home offices, the agencies represented in the embassy were impressed with the quality of their
colleagues and the leadership of the front office. Interagency cooperation, both formal and
informal, is effective. The deputy chief of mission (DCM) devotes much of her time to
promoting this cooperation through regular meetings with each agency head and chairing
interagency working groups. The Ambassador chairs the country team and numerous ad hoc
meetings and is available to each agency whenever necessary.

         The Ambassador served as special assistant to the President and senior director for Russia
and Eurasian Affairs of the National Security Staff and thus brings highly relevant experience to
this, his first diplomatic position. He played a major role in formulating the reset in relations with
Russia. His service in the White House has helped him and the embassy play an active role in the
Washington policy process.

        In his academic work, his previous experience in Russia, and his time at the National
Security Council, the Ambassador was a prominent advocate for the promotion of democracy
and civil society. He began his tour in Moscow as the Russian Government was cracking down
on nongovernmental organizations, independent political voices, and the news media and,
eventually, demanding the shutdown of the USAID mission, which had an active democracy and
governance program. The Ambassador thus became a convenient target for the host government
and was subjected to a level of petty and more serious harassment far exceeding that experienced
by his predecessors. Contacts with some officials were limited and some meetings and outreach
events outside Moscow were canceled. Unwarranted public criticism and intrusive surveillance
were common.

        Despite this difficult environment, the Ambassador was able to maintain an active
schedule of meetings with a broad range of Russians and frequent public diplomacy and other
events, particularly at his residence, in addition to hosting a stream of high-level delegations and
helping U.S. business representatives and other citizens. The OIG team observed a number of
events and meetings he hosted, including a foreign policy seminar for about 350 students and
other contacts, which he conducted in Russian; a well-attended cultural event at his residence;
his briefing of a congressional delegation; and his country team meetings, among others. He is an
impressive communicator—informal but substantive, with good humor and a human touch. He
has also maintained a high public profile including extensive use of social media, as access to
traditional media has become more difficult and less useful. Social media is risky in an
environment where distortion often occurs, but the embassy has been able to develop a
systematic approach to creating and reviewing social media entries to minimize risk while
preserving timeliness.

       The DCM is on her third assignment in Russia, having served most recently as consul
general in St. Petersburg. She and the Ambassador divide their work along traditional lines: he

                                         4
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

handles the bulk of the outside responsibilities and she concentrates on managing the embassy.
They have an excellent working relationship showing mutual respect and support. The DCM is a
strong leader and a hands-on manager in a positive way. She brings people together to address
management or policy issues, promotes cooperation, handles difficult personnel problems with
strength and compassion, and takes an interest in staff members. The OIG team saw her resolve
numerous problems each day. Representatives of Washington agencies also singled out the DCM
as the go-to person to get issues resolved. In addition, she is fully capable of handing the outside
responsibilities of the mission, whether they are meetings and negotiations with Russian officials
or public diplomacy events.

Front Office Operations

        The Ambassador and DCM have busy schedules that are often interrupted by unexpected
crises, high-level visits, calls and videoconferences with Washington, and demands of the host
government. These interruptions lead to delays in decisionmaking and paper flow, which affect
the efficiency of the mission. The OIG team recommended to the Ambassador and DCM that
they free up more time to address action items more quickly, particularly on their participation in
upcoming events and meetings; that the Ambassador take staff members to more meetings with
Russian counterparts and when that is not possible, provide timely readouts; and that briefing
materials be streamlined and feedback on their utility and quality be given to drafters. These
suggestions were welcomed. Improvements in the flow of information occurred almost
immediately.

Developing the Successor Generations

        Mission Russia has a special responsibility to develop the successor generations of Russia
specialists. Several sections are staffed with officers who have served one or more tours in
Russia and have dealt with Russia-related issues in Washington. That expertise has done much to
make the embassy effective. Although some first- and second-tour (FAST) personnel have found
their jobs to be satisfying and are interested in serving in Russia in future assignments, most of
those in the consular section expressed little desire to return—even those who came into the
Foreign Service with Russian language skills. Poor working conditions in a separate building
combined with a growing workload and little opportunity for professional development in other
fields have discouraged them from serving again in Moscow. Consular management needs to
work with these officers to increase efficiency and free up time for them to take on special
projects or duties to broaden their experience and become better integrated into the work of the
embassy.

        The front office is key to this effort. The DCM is working with a recently reenergized
FAST committee to implement a program that would substantially increase opportunities for
professional development. She has also set up a mentoring program for FAST and mid-level
officers, and she and the Ambassador have acted upon the OIG team’s suggestion to implement a
missionwide orientation program for all new personnel. The Ambassador and DCM have
expressed their intention to include more FAST and mid-level officers in regular meetings and
briefings. They intend to create new mechanisms to encourage employees at all levels to propose
new ideas and identify problems and solutions. The Ambassador and DCM agreed to explore the
possibility of creating additional rotational positions, including pairing a year in the consular

                                        5
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

section with one in other sections or in a consulate general. There is some loss of efficiency in
one-year tours, but the benefit in recruiting and developing a Russia cadre can offset it.

       Until recently, the embassy’s FAST program has been too informal and lacked structure.
The embassy thus needs to formalize a FAST program to ensure that all participants, embassy
sections, and constituent posts understand their roles and responsibilities and that all FAST
personnel are able to take part, including those serving in the consulates general. The creation of
such a program is already underway, under the direction of the DCM.

   Recommendation 1:          Embassy Moscow should formalize and implement a structured
   program to provide first- and second-tour officers orientation to and involvement in the broad
   range of work of the mission to enhance the development of their professional skills. (Action:
   Embassy Moscow)

Coordination with the Consulates General

       The DCM holds weekly telephone meetings with the principal officers of the three
consulates general and overall does a thorough job of providing guidance and oversight. She also
holds digital videoconferences with the three consuls general as a group and with the staff of the
consulates general. The consular section also does well in coordinating with and guiding their
consulate general counterparts, to include through holding digital videoconferences.

         Communication and coordination by other embassy sections is less frequent and needs to
be improved. When the OIG team raised this issue with the DCM, she instituted a policy
requiring each section to hold regular digital videoconferences with consulate general
counterparts. She is also considering the inspectors’ suggestion to increase the number of short-
term personnel exchanges between the embassy and consulates general. The DCM and OIG team
also discussed increasing the frequency of travel between the consulates general and the
embassy, particularly the more remote posts in Yekaterinburg and Vladivostok, taking into
account the cap in travel funds. The Ambassador and DCM travel to each consulate general at
least once a year. Not all reviewing officers of FAST personnel at the consulates general are
fulfilling their responsibilities to become familiar enough with the work of rated employees to set
forth independent observations on performance and potential.

   Recommendation 2:         Embassy Moscow should implement a plan to improve
   communication and coordination with the three consulates general, including more regular
   digital videoconferences, phone calls, and visits, as well as short-term details, and longer-
   term assignments. (Action: Embassy Moscow)

Mission Policy and Resource Planning

        Along with other Bureau of European and Eurasian Affairs missions, Embassy Moscow
was a pilot embassy for the triennial Integrated Country Strategy process launched this year. The
embassy got off to a late start, which delayed its submission, but the result was a well-
constructed, useful strategy. The process brought all relevant sections and agencies into teams
that developed goals and objectives, action plans, and benchmarks for their areas. The
Ambassador met with the individual sections and agencies to review their priorities and
programs during the process.
                                        6
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Relationships with Locally Employed Staff

        The Ambassador devotes considerable attention to LE staff. He addresses them in
Russian during quarterly town hall meetings. He includes them along with American staff in
seminars, in representational events at his residence, in his meetings with sections and agencies
to discuss policy objectives, and in his annual holiday reception for embassy employees and
families. He or the DCM regularly attend meetings of the LE staff association committee. He and
the DCM were particularly attentive to the LE staff of USAID, who had to wind down the
programs they had supported for two decades and now face major adjustments in their
professional lives.

Security and Equal Employment Opportunity

        The Ambassador and DCM are supportive of the regional security officer in
implementing security measures. (Security issues are covered in a separate classified annex to
this report.) As noted later in this report, the Ambassador and DCM strongly support the
mission’s Equal Employment Opportunity (EEO) program, including EEO training for all
American and LE staff.

Seminar Series

        In fall 2012, the Ambassador launched a seminar series with the ultimate goal of
preparing policy recommendations for the new Secretary of State. Various officers prepared
presentations on their areas of expertise; the audience included American and LE staff from
around the mission. The seminar series gave an opportunity for staff members to make a
contribution to policy areas beyond their own. Presentations by embassy officers formed the
basis for presentations in Russian for key public audiences, including the seminar conducted by
the Ambassador mentioned above. The OIG team considered this initiative well worth
replicating at other posts.

Consulate General St. Petersburg

         Consulate General St. Petersburg is the largest of the three consulates general in Russia.
It is the nearest to Moscow and is the site for many high-level bilateral and multilateral meetings,
so its contacts with the embassy are much more frequent. The consul general is doing a good job
leading the consulate general and carrying out public diplomacy, representation, and support for
American business and citizens. The OIG team initially questioned whether there was a need for
a deputy principal officer but decided that because of the requirements to oversee the process of
building a new consulate general and coordinate a growing number of high-level visitors and
major events, the position can be justified as long as there is a clear delineation among the roles
of the principal officer, the deputy, and section chiefs.

Consulate General Vladivostok

       Consulate General Vladivostok is located seven time zones east of Moscow. Last year,
the Russian Government hosted the Asia-Pacific Economic Cooperation summit in Vladivostok,
a major event for this remote city. The consulate general and embassy did a commendable job
supporting U.S. delegations to the various meetings and associated events.
                                        7
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

       The consul general is completing her 3-year tour this summer. Her performance has been
mixed. She has had problems communicating with and managing her staff effectively.
Relationships with some members of the staff are strained and have had a negative effect on their
work and morale. The consul general made a policy of not including any LE staff members in
meetings that she conducts with Russian contacts. Other American employees have followed this
example. This exclusion sends a negative message to LE staff members, limits their access to
key local contacts, and hampers their professional development. The OIG team counseled the
consul general to change this practice.

Consulate General Yekaterinburg

        This small consulate general does a good job in representing U.S. interests in its region.
The consulate general historically has difficulty staffing its positions, which resulted in five of
eight positions being filled by FAST personnel. With so few mid-level officers, it is difficult to
maintain a FAST professional development program, but because officers have more
responsibility and independence than colleagues at larger operations, this can be a rewarding
tour. The consul general departed shortly before the inspection. The principal task of the next
consul general will be to support a staff that operates under difficult conditions, provide
mentoring and guidance to the FAST officers, and facilitate the consulate general’s move to a
more suitable site. Consulate general officers need to travel to Moscow on a more regular basis
for access to classified communications.




                                         8
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Political Section

        The section is competently led and enjoys high morale. It produces outstanding reporting
that covers the full range of bilateral and multilateral issues. The section clears most of its own
cables, which generally are well-sourced, timely, and relevant to policy. The section’s analytical
reporting, in particular, provides the Department of State (Department) and other Washington
consumers with valuable perspectives and insights.

        In the 6-month period before the inspection, the section produced approximately 510
cables and record emails. Topics ranged from nonproliferation, regional conflicts, and Russian
foreign policy, to human rights, terrorism, and internal politics. More attention to reporting on
Russia’s Arctic policy, which involves political, security, economic, and environmental interests
would better serve Washington consumers.

        The section does not use its reporting plans to monitor and evaluate performance. Some
section officers were not even aware that the plans existed. Given the rapid pace of developments
in Russia, it would be useful to review and update the reporting plans with embassy leadership
and relevant Department offices so that mission priorities remain relevant.

     Informal Recommendation 1: Embassy Moscow should periodically review its
        reporting plans to keep them relevant and adjust the plans as appropriate.

        Communication among section staff is good and officers enjoy cooperative and
productive working relations with colleagues in other embassy sections. The section estimates
that a quarter of its work is devoted to supporting senior official visitors—56 in 2012.

        The political section’s unit chiefs do not regularly copy their deputies on emails, which
creates challenges when the latter are called upon to serve as acting unit chiefs and are unaware
of key developments. The OIG team counseled the section chief on the need for unit chiefs to
keep their deputies fully informed of developments.

        The section maintains 10 years of electronic and hard-copy files that have not been
archived. Retention of excessive file holdings is inconsistent with the requirements of 5 Foreign
Affairs Manual (FAM) 414.5 b.(5) regarding records disposition schedules. The section recently
began scanning Ministry of Foreign Affairs faxes and electronically filing such communications.
As a result, these hard-copy files are no longer needed.

     Informal Recommendation 2: Embassy Moscow should direct the political section to
        retire its files consistent with Department of State requirements.

        Prior to the inspection, the section used regular email to send certain reports to the
Department and other agencies, which neither preserved information as required by Department
regulation nor allowed for broad distribution. During the inspection, the political section began
to transmit periodic reports using the State Messaging and Archive Retrieval Toolset (SMART)


                                        9
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

record email function. One agency responded positively to this practice and noted that record
emails had widened message distribution.

Vladivostok

        Consulate General Vladivostok produces a large volume of spot reporting—more than
the other two consulates general combined. The reporting covers an array of topics, including
environmental, human rights, and trade and investment issues. Greater quality control is needed
in drafting and editing; several cables were recalled before and during the inspection. The consul
general told the OIG team she has encouraged more analytical reporting, but she has also
required a specific quantity of reporting every week. As a result, the section is focused on
quantity rather than quality. Fewer items, with greater analysis and insight, would more
effectively serve Washington consumers.

     Informal Recommendation 3: Embassy Moscow should issue guidance to Consulate
        General Vladivostok on balancing spot and analytical reporting.

Yekaterinburg

         The consulate general’s volume of reporting is light, but well balanced between spot
reporting and analytical reporting. LE staff members are dedicated and capable. The first-tour
political/economic officer at this remote consulate general receives little guidance and feedback
from supervisors. The position was previously graded at the mid-level but was historically hard
to fill and subsequently converted to an entry-level position. The OIG team counseled the
political/economic officer, as well as the embassy political and economic sections, on improving
communication and guidance.

St. Petersburg

         Consulate General St. Petersburg covers the major issues of interest emanating from
northwest Russia. Recent reporting includes cables on local political parties, lesbian, gay,
bisexual, and transgender rights developments, the current situation of migrant labor, and
government challenges to nongovernmental organizations—all timely issues. Frequent official
visitors to the region afford the political/economic officer and three LE staff opportunities to
engage with the leadership of governmental, nongovernmental, and private sector institutions.
The deputy principal officer supervises the section, with the consul general serving as reviewing
officer.

Economic Section

        The economic relationship is relatively open and positive. This situation allows for
greater scope of engagement with the Russian Government on economic and trade matters. The
well-led economic section’s two units, the macroeconomic policy and energy/trade and
investment units, perform as an effective, integrated team. The section covers issues ranging
from oil and gas—the dominant sector of the Russian economy—to the pre- and post-accession
challenges the country faces regarding the Organization for Economic Cooperation and
Development and the World Trade Organization, respectively. Staff members at all levels are

                                       10
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

familiar with the work of their colleagues, readily offer support, and demonstrate an
entrepreneurial approach to their work.

       In 2012, the section led the embassy effort to support the Secretary of State and the U.S.
delegation to the Asia-Pacific Economic Cooperation meeting convened in Vladivostok. This
year Russia will host the G20 summit in St. Petersburg, which the President will attend. The
economic section has demonstrated its ability to manage these large, multifaceted events.

         The section produces high-quality economic reporting and is responsive to special
requests. More reporting on intellectual property rights/enforcement, the connection between
Russian business and politics, and the Eurasian Economic Union would be useful. The section’s
daily economic press highlights, weekly Russia labor report, and more in-depth weekly analyses
are all quality products, which the inspection team advised be transmitted via record email. The
economic section has begun transmitting the economic weekly and labor weekly reports as a
record email.

        The Departments of Agriculture, Commerce, and Energy maintain resident offices in
Moscow. The mission has also approved a request from the Department of the Treasury to
reestablish a limited presence in Moscow. The economic section’s minister counselor chairs a
weekly meeting of all embassy elements interested in economic and commercial issues. In
addition, the DCM chairs a twice-monthly interagency commercial task force meeting that draws
participation from all relevant mission elements. Commercial advocacy and support for
SelectUSA, a program that encourages foreign direct investment in the United States, are
vigorous and jointly pursued by the relevant agencies, each drawing on its strengths and
expertise.

        Intellectual property rights are high on the bilateral agenda, and the two countries have
established a working group on the subject. The section monitors Russia’s progress
implementing new legislation, which will be a factor in assessing Russia’s qualifications for
membership in the Organization for Economic Cooperation and Development. There is
substantial interest in additional reporting on these issues in Washington. The embassy’s
intellectual property working group, chaired by the U.S. Patent and Trademark Office
representative, with participation from law enforcement agencies and the economic section,
meets only irregularly.

     Informal Recommendation 4: Embassy Moscow should elevate the existing intellectual
        property working group to a body convened by the deputy chief of mission, and the
        group should meet on a regular basis.

Environment, Science, Technology, and Health Section

        The environment, science, technology, and health (ESTH) section, one of the largest such
sections in the world, does an excellent job supporting a diverse group of U.S. Government
stakeholders, many of whom have direct cooperative relationships with their Russian
counterparts. The section promotes an agenda that includes strengthening nonproliferation
regimes and nuclear security, combating infectious diseases, protecting wildlife and fisheries,
and enhancing climate change cooperation. ESTH issues feature prominently in the embassy’s
social media outreach.
                                       11
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        Because many of its U.S. Government stakeholders do not have regular access to the
Department’s reporting cables, ESTH successfully uses an alternative reporting mechanism:
daily blog postings on a Department Web site, which it consolidates into a weekly roundup email
to more than 300 recipients. The section produces few front channel cables, mostly on technical
subjects. The OIG team suggested greater attention to reporting on science policy.

        Despite its overall strong performance, section morale is relatively low because of poor
internal communication, unclear lines of responsibility and supervision, interpersonal problems,
and a perception among staff of a lack of front office interest in ESTH issues. [Redacted] (b)
[Redacted] (b) (6)                                                             (6)




Law Enforcement Section

        The law enforcement section’s role is uncertain in light of the Russian Government’s
May 2013 termination of the bilateral agreement under which judicial and legal reform and law
enforcement training programs operate. The section houses personnel from three organizations
with related missions: the Department’s Bureau of International Narcotics and Law Enforcement
Affairs (INL), the Department of Justice, Office of Overseas Prosecutorial Development,
Assistance and Training, and the Export Control and Related Border Security program. They
share office space but are administratively independent.

        INL directly funds three programs in Russia through grants made by its Washington
headquarters to nongovernmental and international organizations. INL also funds the Office of
Overseas Prosecutorial Development, Assistance and Training’s presence and program through
an interagency agreement at the headquarters level and manages program design, reporting, and
evaluation activities from Washington. The four programs total about $4 million annually. INL
intends to amend the four program agreements to shift design and management responsibility
from Washington to Embassy Moscow. The INL officer is scheduled to receive training to
become a grants officer representative.

        Because the bilateral agreement has been terminated—the law enforcement assistance
relationship is in decline and the remaining programs are likely to be further reduced—there is
insufficient justification to maintain a separate INL section of one U.S. direct-hire officer and
three LE staff positions. The four programs could be adequately managed at a lower cost from
Washington. The U.S. direct-hire position and two of the three LE staff positions can be
eliminated. One LE staff position can be moved to another section.

    Recommendation 3:       Embassy Moscow, in coordination with the Bureau of International
    Narcotics and Law Enforcement Affairs and the Bureau of Human Resources, should abolish
    position number 10-297000 at the conclusion of the incumbent’s tour. (Action: Embassy
    Moscow, in coordination with INL and DGHR)

    Recommendation 4:       Embassy Moscow should abolish position numbers 97-444100 and
    101063. (Action: Embassy Moscow)


                                       12
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        Law enforcement section reporting in the 6 months before the inspection largely
consisted of the INL officer’s quarterly activities report, which provided factual data on meetings
and travel, but little detail and less analysis. Analytical reporting is clearly not a priority at
present. An INL LE staff member and the INL section chief helped prepare the embassy’s
submission for the 2013 Trafficking in Persons Report and International Narcotics Control
Strategy Report. Incorporation of the reporting LE staff member into a larger reporting section
would provide necessary oversight and broader context.

   Recommendation 5:          Embassy Moscow, in coordination with the Bureau of International
   Narcotics and Law Enforcement Affairs and the Bureau of European and Eurasian Affairs,
   should assign responsibility for mandated reporting to another embassy section and transfer
   the related local employee position 100810 to that section. (Action: Embassy Moscow, in
   coordination with INL and EUR)

Record Email Products

        Embassy Moscow’s front channel cable reporting attracts attention from a broad range of
Washington consumers. Its excellent informal reporting products, chiefly email and blog
roundup reports on political, economic, environment, science, and technology developments, are
not as widely distributed. They therefore are not available to all offices with an interest in them
and are difficult to retrieve and reference. Reporting officers have the capacity to use SMART to
send record emails and preserve the information but were not doing so. At the OIG team’s
suggestion, the political and economic sections began sending out some of their informal
products as record emails, but reporting by other sections still merited transmission using
SMART record email, which would facilitate wider distribution by Washington addressees.

   Recommendation 6:         Embassy Moscow should establish written guidance identifying
   which current reporting products should be preserved and sent by record email. (Action:
   Embassy Moscow)

Public Affairs Section

        The tightening of controls over the press and nongovernmental organizations has made
public diplomacy in Russia more difficult, but the public affairs section is doing an excellent job
in these challenging circumstances. It has responded by placing more emphasis on social media
and digital outreach and adopting a flexible approach to cultural and educational exchanges. The
section led an embassywide effort to examine growing anti-Americanism in Russia and
developed and implemented a plan to counter misperceptions about the United States. In FY
2013, the Department devoted about $29 million to public diplomacy resources in Russia, the
highest public diplomacy funding level for any mission in the world outside of Iraq, Afghanistan,
and Pakistan. Staffing in the public affairs section is adequate.

Information Office and Social Media

        The Ambassador places a strong emphasis on communicating with the Russian public
through social media, and the public affairs section has worked closely with him to accomplish
this goal. In 18 months, the Ambassador’s Twitter followers went from zero to more than
48,000, and he acquired 10,000 Facebook friends and subscribers. The embassy’s Twitter
                                       13
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

followers increased to more than 12,400, and its Facebook fans to more than 7,700. The embassy
and Ambassador also maintain LiveJournal blogs and have conducted question and answer
sessions with Russian audiences via social media. The section has an unusually good system for
evaluating the effectiveness of its efforts; it goes beyond the usual statistical measures to include
a qualitative assessment of positive or negative responses.

         Although the Ambassador’s numbers are high, his fan and follower base will not continue
after his eventual departure. The number of followers of the embassy’s institutional Twitter feed
is in line with that of similar embassies, but the embassy’s Facebook site has far fewer fans than
other major U.S. embassies in Europe. The Bureau of International Information Programs’
Russian-language Facebook page has 174,882 fans. The embassy has made creative use of its
YouTube site with a series of short videos of Russian speaking embassy officers describing
various aspects of life in America, but these videos have garnered just several hundred views
each. Given the emphasis on social media, the embassy needs to do more to build its audience.

   Recommendation 7:         Embassy Moscow, in coordination with the Bureau of International
   Information Programs, should implement an audience building strategy for its social media
   activities. (Action: Embassy Moscow, in coordination with IIP)

        During the initial period of expanding the Ambassador’s and embassy’s social media
reach, public affairs staff members frequently worked long hours, extending far into the evening.
The addition of a professional associate and two LE staff members to form a social media team
and the establishment of an informal duty schedule improved the situation. Drafting and
translating tweets and Facebook items in advance for planned events has also helped. However,
there will continue to be a need for work outside normal hours.

     Informal Recommendation 5: Embassy Moscow should establish a written duty
        schedule for evening and weekend work by American and locally employed
        information office staff.

        Staff members assume that they must immediately act upon requests and assignments
they receive by email in the evening, but many of these tasks could wait until the next business
day, which would save on staff overtime.

     Informal Recommendation 6: Embassy Moscow should establish guidance to indicate
        which after-hours email taskings require immediate action or can wait until the next
        business day.

         Section leadership added a professional associate to the information office to launch the
social media effort and lead the team. The section has two assistant information officers, one of
whom could supervise social media. Social media has become so central to information office
efforts that it would make sense to give this responsibility to a permanent staff member. In
addition, changing the reporting lines so that the webmaster and social media staff report to the
same supervisor would improve coordination between these online activities.

     Informal Recommendation 7: Embassy Moscow should assign supervision of social
        media efforts and the Web site to one of the two assistant information officers.

                                        14
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       The embassy’s Facebook page clearly displays its terms of use, but the consulate
general’s Facebook pages do not. Displaying terms of use is a requirement of 5 FAM 793.4.

     Informal Recommendation 8: Embassy Moscow should place terms of use on all
        Mission Russia social media sites.

        The information unit spends a significant amount of time on media reaction and
summaries, which occupies most of the time of one LE staff member and an hour a day for
another. Meanwhile there are unmet needs for additional translations and reporting on media
trends.

     Informal Recommendation 9: Embassy Moscow should assign additional translation
        and reporting duties to the local staff member primarily responsible for media reaction.

Educational and Cultural Exchanges

       This unit oversees a robust academic and professional exchange program and a wide-
ranging speaker and cultural activity schedule. The section makes good use of the chief of
mission residence, Spaso House, for public diplomacy programs. The residence has taken on
added importance as the Russian Government has made it more difficult for the embassy to
arrange public events at government venues. The section has responded to the tightening climate
for public diplomacy programs by emphasizing support for nongovernmental activities, such as a
new peer-to-peer program that will link private American organizations with Russians in the
same field.

        Mission Russia pioneered the American Corners concept in the 1990s, establishing a
network of spaces in libraries and other institutions where Russians could find books and videos
about the United States, attend programs, explore study opportunities, and use computers and
other equipment. This concept of working in cooperation with local institutions caught on
worldwide; by June 2013 the global program numbered 484 Corners. In the last few years the
Russian Government and local authorities have been pressuring institutions to withdraw their
participation, and the number of active Corners has shrunk from 29 to 20 in the past year.

       The cultural office nominates candidates for a wide variety of programs. Conducting a
proper candidate search or competition requires a large amount of staff time in a country as big
as Russia, which may not be worthwhile for small programs, such as the Benjamin Franklin
Transatlantic Fellows Summer Institute, for only one or two grantees. Other programs, such as
high school sports exchanges, require a huge amount of embassy staff time to accompany
American students in Russia and reach relatively few people.

     Informal Recommendation 10: Embassy Moscow should perform a cost-benefit analysis
        of labor-intensive exchange programs to determine if their value justifies the time spent
        on them.

       The English language program office makes good use of exchange alumni across the
country to carry out its programs, including a large and popular English Access Microscholarship
Program for disadvantaged youth. This program has expanded to about 900 students at 21 sites.
The embassy has found creative ways to monitor these sites using English language fellows,
                                       15
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Fulbright language teaching assistants, and traveling embassy officers, but the projected
reductions in the embassy’s travel budget will make site monitoring increasingly difficult.

     Informal Recommendation 11: Embassy Moscow should implement a strategic plan for
        its English Access Microscholarship Program, specifying an optimum number and
        location of sites.

        The English language officer position is language-designated at the 3/3 level. The officer
travels frequently in Russia and needs some language capability for that purpose but works
primarily with English-speaking professionals. The OIG team questions whether the language
requirement should be 3/3.

   Recommendation 8:         Embassy Moscow, in coordination with the Bureau of European
   and Eurasian Affairs and the Bureau of Educational and Cultural Affairs, should review the
   language requirement for the English language officer position in the 2014 review of
   language-designated positions, with an eye toward possible reduction. (Action: Embassy
   Moscow, in coordination with EUR and ECA)

        Embassy Moscow estimates that there are 60,000 alumni of U.S. Government-sponsored
exchanges in Russia. The unit promotes alumni organizations, encourages alumni activities, and
includes alumni in embassy-sponsored events. The departure of USAID could lead to a loss of
contact with the large numbers of exchange alumni unless the public affairs section incorporates
them into its alumni outreach efforts and encourages them to register on the Department-run
International Exchange Alumni Web site.

     Informal Recommendation 12: Embassy Moscow should include the alumni of the U.S.
        Agency for International Development-sponsored exchange programs in its alumni
        outreach efforts and provide the Bureau of Educational and Cultural Affairs with a list
        of such alumni to facilitate their registration on the International Exchange Alumni
        Web site.

        The effort to combat anti-Americanism includes the successful Meet US! embassy
speaker program, in which officers from across the embassy present topics about American life
to students at high schools and universities. In the past, the public affairs section offered useful
talking points and themes to embassy speakers on the internal mission SharePoint site, but it has
not updated the documents since 2009.

     Informal Recommendation 13: Embassy Moscow should update the talking points and
        themes for embassy speakers on the internal mission SharePoint site.

Consulate General Issues

        Public diplomacy staff in all the consulates general conduct effective outreach and
programs in their districts. The country public affairs officer has a weekly telephone call with
each of the consulate public affairs officers, but public diplomacy programs in Russia are wide-
ranging and involve many office subsections. The consulate staff needs more information from
the embassy about program procedures, budget apportionments, long-term plans for speakers and
cultural groups, and public diplomacy activities in the consulate general. During the inspection,
                                        16
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

the embassy’s public affairs section conducted the first in a planned series of digital
videoconferences with consulate counterparts, and the OIG team encouraged the section to make
such communication a regular practice. Many embassies with multiple consulates convene an
annual meeting of public affairs officers to discuss strategy, plan events, and explain program
procedures.

     Informal Recommendation 14: Embassy Moscow should convene an annual conference
        of public affairs officers throughout Russia to improve planning and coordination.

        Consulate General St. Petersburg runs a busy program of cultural activities and speakers
with its strong local staff, but the single American officer spends a considerable amount of time
on administrative functions and editing English language documents. The consulate general has
requested a second American officer, but there are no current plans to assign one.

     Informal Recommendation 15: Embassy Moscow should provide native English
        speaking assistance to the public affairs officer in St. Petersburg through an eligible
        family member, local hire, or other means.

        Consulate General Yekaterinburg is effective in outreach and its use of social media. To
overcome the obstacles of long distances and poor transportation links, the section uses the
consulate general’s digital videoconferencing capabilities to reach youth at high schools and
universities in its large consular district in the Urals and Western Siberia. The consulate general
reestablished a small alumni association of former exchange participants that adds to public
outreach capacity.

        The public affairs officer position in Yekaterinburg is graded as an entry-level FS-04
position in contrast to the same position in Vladivostok, which is an FS-02 position. These two
consulates general are of equal size, but historic staffing difficulties led the Department to
downgrade the public affairs officer in Yekaterinburg to an entry-level position. In terms of
responsibilities, there is no reason the two positions should have different grades. The
responsibilities of the public affairs officer position in Yekaterinburg exceed that of an FS-04
position.

   Recommendation 9:         Embassy Moscow, in coordination with the Bureau of Human
   Resources, should determine the appropriate grade for the public affairs officer positions in
   Consulates General Yekaterinburg and Vladivostok and request a change in position grades,
   as appropriate. (Action: Embassy Moscow, in coordination with DGHR)

        Consulate General Vladivostok engages in public outreach and does a good job
supporting visitors, speakers, and performers. The section invests heavily in social media, which
has allowed it to expand its outreach. The consulate general has more than 5,000 Facebook fans,
second only to the embassy.

Grants and Administration

        The embassy’s public affairs section does a large proportion of its programming through
grants. In 2012 it issued more than 251 grants, totaling more than $4.5 million. A sample of the
grants files showed they were generally in good order with just a few documentation issues: not
                                        17
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

all grants were in the Grants Database Management System, most grants files did not use the DS-
4012 checklist, and the section was not checking for excluded parties on all grants. The OIG
team counseled the staff on these points. In spring 2013, the section began to formalize grants
procedures, including a digital videoconference with consulate public affairs staff.

         A revision to Grants Policy Directive Number 16, effective January 1, 2013, requires that
grants officers appoint a grants officer representative for all grants exceeding $100,000. It also
states that all grants officer representatives must obtain Office of the Procurement Executive
certification by June 30, 2013, which requires proof of recent training. As of late June, the public
affairs section had issued at least one grant in 2013 above the limit without naming a grants
officer representative. The embassy, which normally issues several grants per year above
$100,000, had no certified grants officer representatives in the Office of the Procurement
Executive database.

   Recommendation 10: Embassy Moscow should follow the requirements of Grants Policy
   Directive Number 16 regarding the designation of certified grants officer representatives.
   (Action: Embassy Moscow)

        For grants of $100,000 or less, Grants Policy Directive Number 16 gives grants officers
the option of designating a certified grants officer representative. The section’s grants officers
sign public diplomacy grants for the entire country, as well as non-public diplomacy grants for
other embassy sections. Moscow grants officers will find it difficult to monitor grants in other
consular districts and grants for programs with which they are unfamiliar.

   Recommendation 11: Embassy Moscow should determine which officers in the
   consulates general and embassy sections need to obtain grants officer representative
   certification to facilitate the proper monitoring of public diplomacy and non-public
   diplomacy grants, and should obtain the required certification, as appropriate. (Action:
   Embassy Moscow)

        The section provides digital videoconference services for the entire embassy, including
for non-public diplomacy purposes, such as language tests and internal mission meetings. The
growing use of this technology has taken section staff away from their public diplomacy duties.
At the time of the inspection, the information management (IM) office had just purchased
additional digital videoconference equipment to support the mission.

     Informal Recommendation 16: Embassy Moscow should establish procedures to
        designate non-public affairs staff to conduct non-public diplomacy digital
        videoconferences.

Consular Operations

        Consular operations face a burgeoning workload and policy changes that affect consular
programs. The nonimmigrant visa workload has increased by 66 percent over the past 3 years. In
June 2013, visa appointment waiting times exceeded worldwide goals specified by the Bureau of
Consular Affairs. Extended visa appointment waiting times in turn stimulate emergency
appointment requests and increase the number of referrals and inquiries from the public, which
in turn reduces the time available for training and process improvement. The consular sections in
                                       18
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Moscow, St. Petersburg, and Yekaterinburg are poorly configured, which reduces efficiency.
Although planned construction projects will eventually improve workflow and office space,
these will take years to complete and leave the consular section with substandard office space in
the meantime.

       Other challenges include assisting citizens affected by the ban on adoptions of Russian
children by American prospective parents, implementing a bilateral visa agreement, and working
on time-consuming and complex Summer Work Travel program visa applications in the wake of
major changes to that program in 2012. The section is also planning to support the Sochi
Olympics, which will attract an estimated 20,000 American visitors.

        Despite these challenges, the consul general has done a good job coordinating consular
operations countrywide and managing sensitive policy issues in close coordination with the
Ambassador and the Department. As country coordinator, he chairs a monthly digital
videoconference and is in frequent email and phone contact with the consulates general. He had
visited all the consulates general twice a year and the consular agency once at the time of the
OIG inspection.

Nonimmigrant Visas

        The nonimmigrant visa unit delivers courteous service to its applicants. During the
inspection, visa wait times declined. The unit could take a series of steps to improve productivity
and further reduce visa wait times. Despite the increase in visa applications over the past several
years, the section now has sufficient personnel and resources to meet its current workload. The
number of cases processed and issuance rates vary widely among officers. Even some
experienced officers have low productivity.

        The consular section does not have a formal FAST officer training program. Instead,
FAST officers train each other on the job on consular operations. FAST officers noted that
although managers hold adjudication meetings, they seldom give guidance on how to speed up
adjudications or focus interviews. The variability of productivity and adjudication rates indicates
a lack of a cohesive approach to interviewing. Training by mid-level officers helps inexperienced
officers make faster decisions, shaves time from interviews, and demonstrates greater
consistency of decisions. Effective consular managers make training a central part of their work
and establish an ongoing program of staff training and professional development.

   Recommendation 12: Embassy Moscow should establish a formal orientation and
   ongoing training program for consular adjudicating officers. (Action: Embassy Moscow)

        Managers need to establish clear expectations, monitor productivity, provide counseling
to those failing to meet goals, and incorporate this information into evaluations. Nonimmigrant
visa officers expressed frustration that managers do not set clear targets for how many cases
officers are expected to adjudicate, and no repercussions apply to those officers who consistently
underperform. Managers have not set expectations high enough given the Bureau of Consular
Affairs worldwide targets and need to communicate goals more effectively.




                                       19
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

     Informal Recommendation 17: Embassy Moscow should require consular managers to
        establish clear expectations regarding caseload, monitor productivity, and provide
        feedback to officers.

         Visa wait time in Moscow exceeds 21 days and appointments are set several months in
advance. Managers sometimes grant leave requests on short notice, leaving the section short-
staffed.

     Informal Recommendation 18: Embassy Moscow should require consular officers to
        submit annual leave requests 3 months in advance.

        The section could manage its visa workload more effectively by implementing a shift
schedule. Officers frequently work through lunch and without breaks to accommodate all
applicants. The number of adjudicators exceeds the number of interview windows. A shift
schedule could accommodate breaks and maximize the use of interview windows and officer
resources. It would also provide predictable schedules for visa adjudications and allow officers
time to work on other projects.

     Informal Recommendation 19: Embassy Moscow should implement a shift schedule for
        nonimmigrant visa appointments.

       Petition-based cases take more time to adjudicate than the average nonimmigrant visa
case. Assigning petition-based cases to designated and trained officers would increase efficiency.

     Informal Recommendation 20: Embassy Moscow should train officers to develop
        expertise in adjudicating petition-based nonimmigrant visa cases and direct those cases
        to the officers with the specialized training.

        Delays in directing applicants to interview windows also slow productivity. Given the
complex waiting room layouts, contractors serve as greeters to help applicants find their way to
windows. Greeters are not clearly identifiable, stationed in critical way-finding locations, or
monitored. Applicants frequently appear confused about where to go and ask LE staff for
directions when greeters are not present. The OIG inspectors observed greeters who were poorly
positioned and sitting in a booth chatting. Effective identification and training of greeters would
help move traffic more quickly through the difficult logistics of the waiting and interview areas.
The OIG inspectors met with the contract representative and a consular manager and
recommended actions to position greeters in strategic locations, provide additional training, and
require that greeters be easily identifiable.

        The OIG team identified several shortcomings in how the mission follows the worldwide
referral program. Some officers in embassy sections and in St. Petersburg directly contact the
consular sections about specific cases, contrary to the referral policy. Embassy Moscow issued
new referral guidelines in April 2013 and provides regular briefings for embassy employees but
has not posted the document on the consular intranet Web site. The public liaison unit in
Moscow is authorized to respond to visa inquiries that the embassy receives.




                                       20
                           SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

      Recommendation 13: Embassy Moscow should require that visa inquiries be referred to
      the consular section’s public liaison unit or to the public inquiries email boxes at the
      consulates general for response. (Action: Embassy Moscow)

         Informal Recommendation 21: Embassy Moscow should post the worldwide referral
            policy and referral forms on the consular intranet Web site.

       Consular managers in Moscow and Yekaterinburg do not always complete timely
reviews of visas issued and refused, as required by 9 FAM 41.113 PN17 and 9 FAM 41.121
N2.3-7. In Vladivostok, the consul general was reviewing all adjudications by the consul and
vice consul. On the OIG team’s advice, the consul assumed responsibility for the vice consul’s
reviews. Reviews are a requirement and facilitate uniformity in adjudications and correct
application of immigration laws and regulations.

      Recommendation 14: Embassy Moscow should require supervisory officers to complete
      timely reviews of visa issuances and refusals. (Action: Embassy Moscow)

Summer Work Travel Program

        Embassy officers spend more time than necessary on job verification and document
review for the Summer Work Travel program. A February 2012 OIG inspection report on the
Bureau of Educational and Cultural Affairs 1 recommended limiting the size of the program until
the bureau could implement more rigorous oversight of sponsors. The press in Moscow and
program sponsors in the United States complained about high refusal rates for Summer Work
Travel program visa applicants. Nonimmigrant visa officers, who expressed concerns about
abuses of the program, including criminal activities, were reluctant to approve applications
without extensive verifications and lengthy interviews, even after the Bureau of Consular Affairs
instructed the embassy that one-to-one job verification was unnecessary. The nonimmigrant visa
unit pursued a time-consuming process which included the review of three separate documents
and a spreadsheet of job offers from the bureau’s Kentucky Consular Center. This process
resulted in a large number of interim visa refusals while officers sought to verify applicant
employment offers.

        Notwithstanding previous abuses, consular personnel spend too much time on job
verification. In addition, document reviews rarely revealed discrepancies. Consular officers in
Mission Russia applied different procedures in adjudicating these cases, with the consulates
general approving a higher percentage of applicants than the embassy. Although most
adjudicating officers believed the consulates general applicants generally were better qualified,
the different procedures in adjudication contributed to a higher refusal rate in the embassy. Better
guidance would improve efficiency and allow greater consistency in adjudications.

      Recommendation 15: The Bureau of Consular Affairs should issue guidance clarifying
      standards to be used in adjudicating Summer Work Travel program visas. (Action: CA)



1
    Inspection of the Bureau of Educational and Cultural Affairs, OIG Report No. ISP-I-12-15, February 2012.

                                              21
                                  SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        Regulations in 22 CFR 62.50 and guidance in 10 FAM 253 assign responsibility for
overseeing program sponsors to the Bureau of Educational and Cultural Affairs, not to
adjudicating officers in Moscow. Although consular officers can provide useful information
about sponsors and their foreign representatives to the Bureau of Educational and Cultural
Affairs, the Bureau of Consular Affairs and mission consular officers have undertaken tasks that
properly are the responsibility of the Bureau of Educational and Cultural Affairs. In the context
of the current responsibility for oversight from the Bureau of Educational and Cultural Affairs,
consular officers assume unnecessary responsibility for verifying employment of applicants.

   Recommendation 16: The Bureau of Educational and Cultural Affairs should send a
   representative to Embassy Moscow to review the performance of sponsor and third-party
   representatives for compliance with regulatory requirements for job placement. (Action:
   ECA)

Visas Viper

        The embassy and consulates general held Visas Viper committee meetings and provided
timely reports, but the meetings in Moscow were generally held as part of country team
meetings. Separate meetings with appropriate mission representatives after the country team, or
at another time, would be more effective.

     Informal Recommendation 22: Embassy Moscow should hold separate Visas Viper
        committee meetings.

American Citizens Services

         The American citizens services unit is doing a good job meeting a moderate but growing
workload. The host government often requires multiple diplomatic notes and written
notifications for prison and hospital visits. Bureaucratic complexity, vast distances, and uneven
infrastructure make even routine visits time consuming, a fact not captured in consular package
statistics. St. Petersburg’s American citizens services workload increases during the summer
months, when cruise ships bring U.S. citizens who may require emergency medical care or
emergency passport replacement. St. Petersburg’s consular chief has been handling the American
citizens services workload, while the FAST officers work in the nonimmigrant visa and fraud
prevention units. FAST officers would benefit from exposure to American citizens services
work.

     Informal Recommendation 23: Embassy Moscow should set up a rotation schedule for
        first- and second-tour consular officers in St. Petersburg to work in the American
        citizens services unit.

     With the Olympics and Paralympics in early 2014, the American citizens services unit in
Moscow is taking the lead in planning for consular needs associated with the events.

     Informal Recommendation 24: Embassy Moscow should dedicate additional consular
        resources for planning and providing American citizens services for the Olympics and
        Paralympics.

                                       22
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Immigrant Visa Unit

        All immigrant visas are processed in Moscow. The unit processed 5,153 cases in FY
2012. Russia was one of the top countries for U.S. citizens to adopt orphans, peaking at 5,862
visas in FY 2004. Workload was declining even before President Putin signed a law that went
into effect January 1, 2013, banning adoption of Russian children by U.S. citizens. The
immigrant visa chief effectively handled the emotionally charged ban. The OIG team counseled
him to establish a predictable work schedule, which would allow time to improve management
controls and free up an officer to work in the nonimmigrant visa unit. Immigrant visa workload,
which averages 40 applicants per day, could be handled by fewer staff members
(Recommendations addressing this issue are in the Consular Staffing section of this report).

Fraud Prevention Units

        The fraud prevention unit in Moscow underwent an extended period without a full-time
chief in 2012. The unit has limited ability to perform fraud investigations because of restrictions
imposed by the host government. Unit staff members focus on performing computer systems
checks but do not undertake other work normally performed by a fraud unit, such as validation
studies. A FAST officer, who was serving as the fraud prevention officer as well as the Summer
Work Travel program coordinator completed a Summer Work Travel program visa validation
study. The fraud prevention unit could contribute more value by identifying fraud trends,
performing validation studies, and training adjudicating officers. The OIG inspectors discussed
with the fraud prevention manager the value of training and validation studies. They have not
performed a visitor visa validation study in several years, even though tourist visa demand has
increased dramatically.

     Informal Recommendation 25: Embassy Moscow should direct the fraud prevention unit
        to perform validation studies.

     Informal Recommendation 26: Embassy Moscow should perform a validation study on
        visitor visas.

       Fraud referrals in St. Petersburg have dropped even though the nonimmigrant visa
workload has increased. The OIG inspectors discussed with managers the need to train
adjudicating officers in fraud prevention and procedures for referring cases to the fraud
prevention unit.

Assistant Regional Security Officer – Investigations

        The embassy’s assistant regional security officer - investigations makes a valuable
contribution to consular operations and enjoys a collaborative relation with the fraud prevention
manager. Consulate General St. Petersburg’s assistant regional security officer - investigations
has a minimal workload given the comparatively low fraud rates in that consular district and the
limited cooperation from Russian law enforcement authorities.




                                       23
                           SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Consular Agency Yuzhno-Sakhalinsk

        The mission maintains a consular agency on Sakhalin Island, which has the largest
concentration of U.S. citizens in Russia’s Far East and is home to significant and expanding U.S.
commercial interests. The consular agent reports to the consul in Vladivostok and primarily
provides services to U.S. citizens working on remote oil and gas projects. This population is
expected to expand in the next 5 years as oil and exploration and construction projects expand.
The routine workload is minimal. The value of this agency lies in in providing local knowledge,
maintaining a network of contacts for U.S. Government interests, and emergency response. If the
U.S. citizen population and services provided by the consular agency do not increase as expected
within the next 5 years, the agency should be closed.

         The consular agent’s contacts with Russian officials and activities within his official
capacity have not been adequately defined. The supervisory consul in Vladivostok imposed
restrictions which could interfere with the agent’s ability to make contacts important for U.S.
citizen interests, such as airport, hospital, emergency responders, and local government officials.
According to the Bureau of Consular Affairs, contact with local officials is permissible if the
consular agent’s supervisor is aware of and approves those contacts.

      Informal Recommendation 27: Embassy Moscow should issue instructions outlining
         policy for the consular agent’s contact with local officials.

      The consular agent has not received adequate support from Consulate General Vladivostok.
His computer has not functioned properly for 9 months, [Redacted] (b) (5)
                                                           The OIG team counseled consulate
general staff about the importance of supporting the consular agent. Although the consular agent
occasionally visits the consulate general, those visits would be more effective if they were timed
so that he could attend consulate general staff meetings or countrywide consular digital
videoconferences. The consulate general has not kept him adequately informed about its
activities in Sakhalin.

    Recommendation 17: Embassy Moscow should direct Consulate General Vladivostok to
    provide required support to the consular agent and keep him informed about its activities in
    Sakhalin. (Action: Embassy Moscow)

Physical Space in Consular Sections

        Delays in groundbreaking for a new $280 million consular annex in Moscow will result
in the consular section remaining where it is for several more years. Attention is needed to
improve consular section working conditions. The building is inefficiently configured and
hampers consular operations. Consular offices and workspaces occupy 43 rooms spread out over
4 floors, while the public uses 14 rooms connected by eight stairways as waiting areas. [Redact
[Redacted] (b) (5), [Redacted] (b) (7)(F)                                              ed] (b)
                                                                                       (5),
                                                                             Because an[Redact
                                                                                         annex
building has been planned for several years, the embassy has been reluctant to expend ed] (b)
maintenance funds on the consular annex building. Consular operations will remain in this
                                                                                       (7)(F)
building for several more years, and the impact on morale and operational efficiency justifies
making maintenance and workplace improvements.
                                          24
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


   Recommendation 18: Embassy Moscow should implement a plan to improve
   maintenance and the usability of consular work space in the existing office building in
   Moscow. (Action: Embassy Moscow)

Consular Staff

        Fourteen FAST officers work in Moscow’s consular section. Many of them do not feel
integrated into the mission and do not feel that they have support from their supervisors or
mission leadership to participate fully in professional development opportunities outside the
section. Although managers sometimes approve nonconsular opportunities, the demands of
consular work limit the opportunities to release officers for short-term activities outside the
section. FAST consular officers said consular managers did not act on suggestions they made to
enhance consular efficiencies and create professional development opportunities.

   Recommendation 19: Embassy Moscow should solicit suggestions from first- and
   second-tour consular section officers to improve consular efficiencies and take action as
   appropriate. (Action: Embassy Moscow)

       In Consulate General Vladivostok, the sole consular manager must train an inexperienced
FAST consular officer. This practice lessens section productivity. Assigning a FAST officer with
consular experience would increase operational efficiency.

   Recommendation 20: The Bureau of European and Eurasian Affairs, in coordination with
   the Bureau of Human Resources, should assign an entry-level officer with consular
   experience to position number 30-003012 in Consulate General Vladivostok. (Action: EUR,
   in coordination with DGHR)

       Moscow’s FAST officers rotate twice a year into different consular portfolios, and
sometimes into different units, but the workloads in those portfolios and units vary substantially.
Six-month rotations diminish efficiency by keeping all FAST officers on a constant learning
curve.

     Informal Recommendation 28: Embassy Moscow should adjust the internal consular
        rotations and portfolios to provide better balance of assignments and more continuity.

       The immigrant visa workload has dropped with the Russian Government’s ban on
adoptions, yet three officers remain assigned in that unit when two officers would be sufficient.
Consular managers need to review internal assignments to maximize officer effectiveness in
meeting the changing demands of the workload.

     Informal Recommendation 29: Embassy Moscow should reassign one entry-level
        immigrant visa officer to another unit.

        Consular section supervisory responsibilities for FAST officers are not distributed
efficiently. Most FAST officers report to the nonimmigrant visa chief because they are assigned
to the nonimmigrant visa unit. A new deputy nonimmigrant visa position will be filled in July

                                       25
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

2013, which will facilitate a more even distribution of supervisory responsibilities for FAST
officers.

     Informal Recommendation 30: Embassy Moscow should redistribute consular
        supervisory responsibilities for first- and second-tour officers more evenly among
        managers.

        The fraud prevention manager also reports to the nonimmigrant visa chief rather than to
the consul general. Having the fraud prevention manager report to the consul general would
allow the consul general to determine which areas of consular work demand the fraud prevention
manager’s attention.

     Informal Recommendation 31: Embassy Moscow should designate the consul general as
        the rating officer for the fraud prevention manager.

        LE staff members in Embassy Moscow’s nonimmigrant visa unit have a heavy workload.
If the appointment system is reorganized to create shifts, additional LE staff members may be
required. The immigrant visa unit of eight LE staff members has a workload of approximately
5,000 cases per year. Six LE staff members would be sufficient, which would allow two LE staff
members to be reassigned to the nonimmigrant visa unit.

     Informal Recommendation 32: Embassy Moscow should reassign two LE staff members
        from the immigrant visa unit to the nonimmigrant visa unit.

        If the nonimmigrant visa wait time is reduced, inquiries would likely drop and LE staff in
the public liaison unit should have sufficient time to assume additional responsibilities. The
public liaison unit could update the consular Web site, which has not been updated since 2011.

        Consulate General St. Petersburg has five consular officer positions, but physical space
and security processing constraints limit the number of people who can be assisted during the
workday. About 30 percent of the visa workload does not require physical appearance of the
applicants and four officers can adequately handle the work. The newly established fifth consular
position in Consulate General St. Petersburg is not justified.

   Recommendation 21: The Bureau of Consular Affairs, in coordination with Embassy
   Moscow, the Bureau of European and Eurasian Affairs, and the Bureau of Human Resources,
   should eliminate position 30-401004 in Consulate General St. Petersburg. (Action: CA, in
   coordination with Embassy Moscow, EUR, and DGHR)

        The FAST officer in Yekaterinburg assumed a disproportionate workload because of
weak leadership in the consular section. The consulates general in Yekaterinburg and
Vladivostok experience periods when only one consular officer is available to work. Consulate
General Yekaterinburg has a designated back up for its consular officer, but Consulate General
Vladivostok does not. Given the consulates general remote locations, need for Russian language
competency, and the potential for any individual officer to be unable to provide services because
of illness or other emergencies, the consulates general could face situations where no
commissioned consular officers are available to assist American citizens or issue visas.

                                       26
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

   Recommendation 22: Embassy Moscow, in coordination with the Bureau of Consular
   Affairs, should require that a commissioned consular officer be designated to back up
   consular officers in Consulate General Vladivostok. (Action: Embassy Moscow, in
   coordination with CA)

Consular Systems

        Consular section electronic applications and IM systems function adequately and IM
personnel provide responsive support. Neither of the IM specialists in Vladivostok had received
consular systems training, so they expend unnecessary effort doing research and asking questions
of the Bureau of Consular Affairs helpdesk.

     Informal Recommendation 33: Embassy Moscow should send one of the two
        information management specialists in Consulate General Vladivostok for consular
        systems training.

Bilateral Visa Agreement

        In 2011, the United States signed a visa agreement with Russia, the first of its kind for the
United States. The agreement calls for, among other things, the issuance of multiple-entry tourist
visas valid for 3 years and issuance of multiple-entry diplomatic visas valid for 1 year.
Compliance by the Russian Government so far has been inconsistent. Anecdotal evidence given
to consular officers by U.S. citizen visitors indicates that a minority of tourists receive multiple-
entry 3 year visas. Section 221(c) of the Immigration and Nationality Act requires that U.S.
citizens receive reciprocal treatment insofar as practicable. Receiving less than full validity visas
means that U.S. citizen travelers must pay for a new visa and complete applications again.

   Recommendation 23: Embassy Moscow should monitor Russian compliance with the
   bilateral visa agreement and recommend reciprocal changes to the Department of State as
   needed. (Action: Embassy Moscow)




                                        27
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Resource Management
                                 U.S.      U.S.        Foreign    Total         Total
           Agency               Direct-   Local-       National   Staff        Funding
                                 Hire      Hire         Staff                  FY 2012
                                 Staff    Staff                                 (000s)
Department of State
Diplomatic and Consular
Programs                           109          7           48       164         $23,745
ICASS                               25         24          603       652         $35,337
Public Diplomacy                    13          2           49        64          $6,014
Diplomatic Security                  8          1           19        28          $1,295
Marine Security Guard               24          -            5        29            $245
Consular Affairs                    27          6           56        89          $1,772
Representation                       -          -             -        -            $165
OBO                                  2          -             8       10          $8,953
Bureau of European and
Eurasian Affairs - Sochi
Olympics                              2            -         1             3        $200
INL                                   1            1         2             4        $582
Department of Agriculture
Foreign Agricultural Service          4            -         7            11        $548
Agricultural Trade
Organization                          1            -         5             6        $271
Broadcasting Board of
Governors
Correspondent Bureaus                 -            -         2             2        $237
Department of Commerce                9            -        22            31      $2,347
Department of Defense
Defense Intelligence Agency         19             1         6            26      $1,376
Defense Threat Reduction
Agency                                8            1         1            10      $1,203
Other                                 3            -         4             7        $325
Department of Energy                  4                     11            15      $1,000
Department of Homeland
Security
U.S. Secret Service                   1                      1             2        $230
Refugee, Asylum and
International Operations              6                      3             9        $684
International Affairs                 2                      3             5        $544
Department of Health and
Human Services                                               1             1        $190
National Institutes of Health                                1             1           0
Department of Justice
Drug Enforcement
Administration                        5                      1             6        $744

                                       28
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Federal Bureau of
Investigation                          4                       -            4            $206
Criminal Division                      2                       1            3            $500
Department of
Transportation                         1                       1            2            $435
Library of Congress                    2                       2            4            $266
National Aeronautics and
Space Administration                   7           1           4           12          $3,344
Totals                               289          44         867        1,200         $92,758
Source: Embassy Moscow

Management Overview

        Embassy Moscow’s management section is highly regarded by its customers, as reflected
in OIG team interviews and International Cooperative Administrative Support Services (ICASS)
and OIG scores. The minister counselor for management and his deputy have the confidence of
the Ambassador and DCM, the country team, their Department contacts, and the mission
community at large. Management staff morale, professionalism, and cohesiveness are high. The
section’s recent accomplishments include advancing the cause for a new consulate facility in St.
Petersburg, securing funding for major facilities upgrades, and easing the transition for more
than 60 LE staff affected by the USAID mission closure.

        Management challenges require high-level attention and regular interaction with key
Russian interlocutors to move the Russian bureaucracy and overcome host country restrictions
on embassy operations. Daily coordination with the regional security office is also required. The
OIG team identified management controls weaknesses at the embassy and consulates general in
the areas of property and financial management, procurement, leasing, motor pool operations,
and information systems. The post report and profiles are outdated, as are many administrative
notices and policies. None of these issues is insurmountable, and most can be addressed easily. A
few issues, including property management, will require considerable attention and were
mentioned in previous OIG inspection reports.

       The consulates general in St. Petersburg, Yekaterinburg, and Vladivostok have small
management sections. The embassy provides back office support to the consulates general, and
the consulates general management staffs work closely with their embassy counterparts on
administrative issues.

Real Property

       Management priorities include construction of a $280 million office annex at the embassy
compound to replace inadequate consular facilities at the existing office building and acquisition
of property for a new consulate compound in St. Petersburg. The annex project in Moscow has
been held up by a contract protest, but work is expected to begin in late 2013 and completed at
the end of 2015.

       Vladivostok and Yekaterinburg also are on the Department’s list for new consulate
compounds, but no formal site searches have begun. A $5 million security upgrade is planned for
the consulate building in Yekaterinburg, with a contract award expected before the end of FY
                                                29
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

2013, but the landlord has still not approved the project. Because the project is to be carried out
largely during work hours, some operations also will be disrupted. For example, visa services
will be limited to emergency situations for several months and applicants from the district will be
directed to the embassy. The mission has concerns about current Bureau of Overseas Buildings
Operations (OBO) construction plans and consulate general suggestions on how to minimize
disruptions were not adopted. Construction of a new consulate compound in Yekaterinburg is
more than a decade away. If the Department decides that a classified facility will not be
necessary, there could be advantages to pursuing a lease fit-out of an existing building with
better setback and functionality as soon as possible, if the landlord does not allow the security
upgrade project to go forward.

St. Petersburg Public Affairs Section Annex

        The consulate general’s public affairs section is located in a commercial building about 2
miles from the consulate office building. In the past, the consulate general did not have room to
house the section, but space is now available. Rent for the annex is about $160,000 per year. The
consulate general estimates the costs of renovation and relocation of the section is approximately
$200,000. The move would save money, enhance communication with the front office, and
better integrate public diplomacy into the work of other sections. Despite shortcomings in the
existing consulate building, a move would also improve security.

   Recommendation 24: Embassy Moscow, in coordination with the Bureau of Overseas
   Buildings Operations and the Bureau of European and Eurasian Affairs, should move the
   public affairs section in St. Petersburg into the consulate building. (Action: Embassy
   Moscow, in coordination with OBO and EUR)

         For the next several years, operations at the embassy compound will be disrupted by
major construction projects and physical security upgrades. Embassy management will need to
coordinate with the facilities management office, the regional security office, the general services
office, tenant agencies, and host country authorities to minimize the impact on morale. With
more than one-third of the embassy’s housing units on the compound, along with recreational
and community facilities, adherence to safety and security standards and communication with
affected offices and residents will be crucial.

     Informal Recommendation 34: Embassy Moscow should communicate regularly with the
        embassy community on the progress of embassy compound construction projects
        through written notices, town hall meetings, and other mechanisms.

Financial Management

        The financial management office provides high quality services to the embassy
community and U.S. Government agencies. The embassy recently implemented a Bureau of
European and Eurasian Affairs directive to transfer travel voucher processing to the
Department’s regional voucher processing center. Because the cost of voucher processing is
about three times higher in Moscow than at the regional center, the embassy is developing a plan
to transfer additional vouchers to the center. The OIG team supports this effort, which has
already resulted in the elimination of one Moscow-based voucher examiner position.

                                       30
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Collection of Outstanding Debts

        According to the embassy’s accounts receivable ledger, Embassy Moscow employees
owe $17,830 for 191 outstanding debts, primarily for embassy-paid residential and cell phone
expenses. Per 4 FAM 493.1-3a., if the debtor does not respond to followup notices and telephone
calls within 60 days of the initial notice, the financial management officer will send a third
notice to the debtor restating the information previously provided, including the cumulative
interest, administrative charges, and penalties. In the absence of collection action, employee
debts to the U.S. Government could go unpaid.

   Recommendation 25: Embassy Moscow should document and refer overdue debts to the
   Bureau of the Comptroller and Global Financial Services for collection action. (Action:
   Embassy Moscow, in coordination with CGFS)

Accommodation Exchange

              The embassy provides accommodation exchange but has not prepared a memorandum to
 document the need for it. The embassy employs two Class B cashiers, one of whom maintains a
[Redacted] (b) (5)
                   cash advance for accommodation exchange. The embassy had previously outsourced
 accommodation exchange to a local bank, but the service was terminated when the Russian
 Government determined that the embassy did not qualify as a retail banking establishment. Four
 automated teller machines remain on the embassy compound. In accordance with 4 Foreign
 Affairs Handbook (FAH)-3 H-361.2, the chief of mission must determine whether to provide
 accommodation exchange services based on the availability of local commercial banks,
 automated teller machines, or currency exchange businesses.

   Recommendation 26: Embassy Moscow should conduct a management review to
   document whether embassy accommodation exchange is beneficial and cost effective and
   have the Ambassador make a formal determination. (Action: Embassy Moscow)

Vladivostok Value-Added Tax Reimbursement Claims

        Consulate General Vladivostok is not processing value-added tax reimbursements for tax
paid on official purchases. In FY 2012 alone, the consulate general expended $20,084 in value-
added tax. As stated in 2 FAM 267, the embassy is responsible for tracking tax reimbursements.
Because of staffing gaps and the cumbersome paperwork required, the consulate general has not
completed its reimbursement requests. U.S. Government funds are wasted if refunds are not
collected.

   Recommendation 27: Embassy Moscow should process value-added tax claims for the
   last 2 fiscal years for Consulate General Vladivostok’s official purchases. (Action: Embassy
   Moscow)




                                       31
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Maintenance and Repair Funds

        In a number of cases, the embassy has expended OBO maintenance and repair funds for
purposes not authorized by regulation. For example, the embassy purchased lighting timers
($2,721), curtain rods ($6,936), air conditioning units ($22,746), and floor polish and varnishing
($4,700) using maintenance and repair funds. According to 15 FAM 621 and 15 FAM Exhibit
161, these purchases are properly charged to other allotments. Accurate accounting is necessary
to ensure that funds are used for authorized purposes.

   Recommendation 28: Embassy Moscow should credit the Bureau of Overseas Buildings
   Operations maintenance and repair account allotments for expenditures that were improperly
   charged and debit the correct allotments. (Action: Embassy Moscow)

Time and Attendance Reporting

        During the inspection, the embassy instituted procedures to preclude timekeepers from
processing their own time and attendance. These procedures included designating in writing 14
alternate timekeepers and reassigning timekeeping duties. The OIG team stressed the importance
of separation of duties in this function to prevent potential time and attendance abuse. The
embassy’s main timekeeper has not taken the Overseas Payroll and Allowances course offered
by the Bureau of the Comptroller and Global Financial Services and would benefit from this
training.

     Informal Recommendation 35: Embassy Moscow should send the main timekeeper to the
        Overseas Payroll and Allowances course offered by the Bureau of the Comptroller and
        Global Financial Services.

Allowance Surveys

        Embassy Moscow and Consulates General Yekaterinburg and Vladivostok are delinquent
in submitting allowance reports used to set the level of the post allowance, lodging and meals,
and incidental expenses rates. Embassy Moscow’s and Consulate General Vladivostok’s retail
price surveys were due in February 2013 and Consulate General Yekaterinburg’s was due in
March 2006. Per Department of State Standardized Regulations 228.2, the post allowance level
is based on living costs in the foreign location relative to living costs in Washington, DC. The
absence of timely allowance reports could lead to employee allowance and travel payments that
do not reflect current costs.

   Recommendation 29: Embassy Moscow should submit retail price surveys to the Bureau
   of Administration for the embassy and the consulates general. (Action: Embassy Moscow, in
   coordination with A)

International Cooperative Administrative Support Services

        The ICASS system functions well. The embassy operates an active ICASS council and
budget committee, and the council has focused over the last year on cost containment. Scores for
financial management services from the ICASS Customer Satisfaction Survey are higher than
average. Although the embassy has issued a policy approving charges for long-term temporary
                                       32
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

duty personnel, not all agencies are charged as necessary under the policy. The financial
management office is not on distribution for country clearance, which would facilitate invoice
preparation for long-term temporary duty employees.

     Informal Recommendation 36: Embassy Moscow should submit invoices to all agencies
        that have long-term temporary duty officers assigned in accordance with management
        procedures.

Human Resources

        The human resources office provides effective and responsive service, as reflected by
positive work quality survey responses and ICASS customer satisfaction scores. Because cleared
American employees and staff must handle virtually all American employee personnel
information, staffing in the office is robust and includes cleared American contractors. LE staff
members work closely with the personnel assistants at the three consulates general. The
assignment to the human resources office of personnel formerly employed by USAID has
created some internal tension because of disparities in grade structure. However, the human
resources officer is taking steps to galvanize the office and plans to conduct a team-building
exercise to address these issues.

Equal Employment Opportunity and the Federal Women’s Program

       The unique challenges of U.S. Government service in Russia and the continuous stream
of newcomers, contractors, interns, and others highlights the need for an effective EEO program.
The embassy recently identified a third EEO counselor to augment its two current counselors and
three LE staff liaisons. There is also a newly appointed Federal Women’s Program coordinator.

       The Ambassador and DCM strongly support the EEO program and in the wake of several
complaints requested that the Office of Civil Rights dispatch a team to Russia to train all
American and LE staff on EEO principles and processes. On-site training, the first ever for
Mission Russia, was conducted in Moscow and at the consulates general in St. Petersburg and
Yekaterinburg in early 2013. Consulate General Vladivostok training was done via digital
videoconference. Attendance was mandatory and included LE staff members. EEO counselors
have also trained specific units in the mission at the request of supervisors.

       There are no EEO counselors at the consulates general in Yekaterinburg and Vladivostok
because of their small size. Consulate General St. Petersburg also does not have an EEO
counselor. Designating an EEO counselor at the consulate general in St. Petersburg would
provide employees with direct access to EEO counseling, if needed.

     Informal Recommendation 37: Embassy Moscow should monitor the Equal Employment
        Opportunity programs at Consulates General Yekaterinburg and Vladivostok and
        establish an Equal Employment Opportunity counselor position in St. Petersburg.

      EEO information can be found throughout the embassy on bulletin boards and the
embassy’s Web site, but it is outdated. There is little information available on the Federal
Women’s Program. It is important that staff have easy access to current information on the
Department and embassy’s EEO and Federal Women’s programs.
                                       33
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

     Informal Recommendation 38: Embassy Moscow should update Equal Employment
        Opportunity and Federal Women’s programs information on its intranet Web site and
        embassy bulletin boards.

Awards Program

         The mission awards program is well structured and advertised. Ceremonies are held
twice yearly, and the interagency joint awards committee reviews award nominations to ensure
criteria are met and repetitive rewards are minimized. The U.S. Government wage freeze extends
to cash awards and has eroded LE staff morale.

Family Member Employment

         The eligible family member hiring program offers nearly 60 positions for family
members, including 3 professional associate positions. There are more positions than can be
filled, but a number of positions are not career enhancing and remain vacant, so the embassy is
seeking to expand the number of professional associates. Family member employment
opportunities are scarce at the three consulates general due to their size, but the demand is not
high. Embassy management would like to negotiate a bilateral work agreement with the Russian
Government if family member privileges and immunities can be preserved. Until then, each
request for employment is considered independently.

        The mission’s published policy on outside employment was last issued in 2006. Officers
and eligible family members are unclear on the policy and it appears outdated due to the
changing economic and security environment. A clear and current policy on outside employment
is important to community welfare.

     Informal Recommendation 39: Embassy Moscow should update and reissue its policy on
        outside employment.

Russian Language Programs

        Language proficiency among American employees, especially FAST officers, has
improved markedly since the 2007 inspection. For example, all FAST officers conduct visa
interviews without interpreters, and FAST officers in other sections can take notes during
meetings conducted in Russian. Only a handful of employees are on language waivers and many
employees outside language designated positions are proficient in Russian at the 3/3 (general
professional proficiency) level. The Russian language program in Moscow for U.S. employees
and family members is effective, as is the English language program for LE staff members.

        Russian is no longer included in the Department’s Recruitment Language Program, as it
did not have measurable impact on the number of test takers in Russian, unlike other languages
in the program. Of the 298 positions in Mission Russia, 144 are language designated or language
preferred; 52 at the 2/2 (limited working proficiency) and 70 at the 3/3 (general professional
proficiency). The periodic process of identifying language designated positions will occur in
mid-2014 and may include an embassy request to designate a position at the 4/4 (advanced
professional proficiency level).

                                       34
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Foreign Service National Association

        The Foreign Service National Association in Moscow advocates on behalf of LE staff in
Mission Russia. Consulate General St. Petersburg has its own LE staff committee that informs
the embassy association of any concerns to be raised with mission leadership. The consulates
general in Yekaterinburg and Vladivostok do not have separate committees because of their
small size. Issues of concern raised with the OIG team include the U.S. Government wage freeze
and the impact of Russia’s high inflation, wage survey methodology, medical insurance and
retirement plans, multiple-entry visas for family members, the exchange rate basis for LE staff
salary scale, and the high number of LE staff in Russia at the top of their grade. A number of
these concerns can be attributed to the prevailing practice of salary survey comparator
companies. However, the mission does have 222 LE staff members, or 30 percent, who are at the
top step of their salary grade. In Vladivostok, 49 percent of LE staff members are at the top step
of their salary grade. This situation weighs heavily on the morale of LE staff with little hope of
future step increases. The OIG team advised the embassy to raise this issue in its next annual
local compensation questionnaire and request that the Office of Overseas Employment look for
ways to address the situation, including consideration of a unique conditions of work allowance.

Official Residence Staffing

        Official residence staffing in Moscow is unconventional. The host government grants
administrative and technical status on the basis of reciprocity to the official residence staff,
including an American citizen employed by the DCM. Several members of the Ambassador’s
staff and one member of the DCM’s staff are hired through a reimbursed services agreement
with a local contractor because private individuals cannot pay into the local social security
system. The embassy has on file a determination from the Internal Revenue Service that the
DCM is not obligated to withhold U.S. income and employment taxes overseas for the American
citizen staff member at the DCM’s residence. This determination is more than 20 years old and
may not reflect current withholding tax interpretations.

     Informal Recommendation 40: Embassy Moscow should request a determination from
        the Internal Revenue Service regarding employer tax withholding requirements for an
        American citizen working as an official residence staff member.

Driver Grade Disparity

        Drivers at the embassy are graded at the FN-4 level, while the drivers at Consulate
General St. Petersburg are graded at the FN-3 level. Further, drivers in Yekaterinburg and
Vladivostok, both much smaller than St. Petersburg, are graded at the FN-4 level. Per 3 FAM
7512.2, proper administration of the position classification system at the post level is the
foundation for the equitable compensation of Foreign Service national employees. This disparity,
which may be due to classification actions at different points in time, is detrimental to the morale
of the drivers in St. Petersburg.

   Recommendation 30: Embassy Moscow should review the job descriptions for regular
   drivers at the embassy and consulates general for accuracy and, where appropriate, submit
   reclassification requests to the Regional Support Center Frankfurt, Germany. (Action:
   Embassy Moscow)
                                       35
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

General Services

         The general services office operates in a difficult environment. Host government
restrictions on property disposal and real property acquisition along with special security
concerns make working in Russia a challenge. Nonetheless, 2013 ICASS customer service
satisfaction survey scores for the general services office were higher than 2012 in all sections
except procurement. The travel and visitors unit ably supports control officers with logistics
arrangements for the mission’s heavy visitor workload. The customer service center takes a load
off the general services sections by receiving requests, scheduling work, and coordinating check-
in for new arrivals and check-out for departing employees.

Personal Property Management

        Accountability procedures for personal property such as furniture, equipment, and
expendable supplies are weak. The embassy received an extension to complete its 2013 annual
personal property inventory but still had not brought all embassy property under accountability
to meet the deadline. Not all property in storerooms or the warehouse was included in previous
annual inventories, especially maintenance and repair supplies that are just now being placed
under the control of the general services property unit. Excessive amounts of stored property and
a lack of advance planning contributes to the problem. So has the practice of annually rotating
portfolios within the general services unit, which interrupts continuity required to address
property accountability activities that require sustained attention over a 2-year tour. Per 14 FAM
416.1a., missions are required to conduct an annual physical inventory and reconciliation of
personal property, including expendable, nonexpendable, warehouse property, and facilities
maintenance property and to submit certification by March 15. Without proper accountability
and an annual inventory, personal property could be stolen or misused.

   Recommendation 31: Embassy Moscow should transfer all personal property to the
   control of the general services property section and complete an annual inventory for 2013.
   (Action: Embassy Moscow)

       The embassy does not have in place a systematic process to begin property inventory,
reconciliation, and disposal processes on October 1 in order to meet the annual deadline in
March. Planning of these functions is an essential management practice, especially at large
missions.

     Informal Recommendation 41: Embassy Moscow should create an advance inventory
        plan for its 2014 annual personal property inventory in order to meet the March 1
        deadline.

Disposal

        Embassy Moscow’s property holdings are excessive. In addition to property contained in
the 2,400 square meter Dorozhnaya warehouse, the embassy has 158 shipping containers of
property on the warehouse grounds. At the embassy compound, expendable and nonexpendable
property is spread out over six levels in the existing office building and in storerooms and
workshops. Broken, unserviceable, and obsolete items clutter the warehouses and storerooms at
the embassy as well as the consulates general. Disposal is difficult because Russian regulations
                                       36
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

limit the mission’s property sales to other diplomats or diplomatic missions, and the three
consulates general must pay expensive shipping costs to send items to Moscow for disposal
because of the limited diplomatic customer pool at their locations. According to 14 FAH-1 H-
711, property not required should not be allowed to accumulate in warehouses but should be
disposed of through methods outlined in 14 FAH-1 H-713. Continued storage and handling of
unneeded property wastes time and space.

   Recommendation 32: Embassy Moscow should regularly identify and dispose of
   unneeded property as required by Department of State regulations. (Action: Embassy
   Moscow)

Receiving

        At Embassy Moscow, cleared American contractors sign the receiving reports for
securely procured items. The embassy was unaware that contract employees are prohibited from
signing these reports. According to 14 FAM 413.3 and Federal Acquisition Regulation 7.5,
acceptance of property on behalf of a Federal agency is an inherently governmental function to
be performed only by employees of the U.S. Government. Contractors may perform the
inspection and receiving functions but are not authorized to sign the receiving reports. Without
direct oversight of receiving property by a U.S. Government employee, resources could be
subject to waste or fraud.

   Recommendation 33: Embassy Moscow should designate a cleared U.S. Government
   employee to sign the receiving reports for securely procured items. (Action: Embassy
   Moscow)

Procurement

       The OIG team’s review of procurement documents in Moscow found six instances of
unauthorized commitments in the first 6 months of FY 2013. Three of the cases that exceeded
$1,000, including one for more than $200,000 in legal services, were not ratified. Procurement
supervision rotates among the three assistant general services officers, weakening oversight. The
unauthorized commitments require ratification as outlined in Department of State Acquisition
Regulation 601.602-3 and 14 FAH-2 H-132. The Office of the Procurement Executive must also
approve unauthorized commitments exceeding $1,000. Unauthorized commitments may result in
personal liability for the person making the commitment. Vendors who act on unauthorized
requests are not paid unless the case is ratified.

       In addition, records for 13 procurements ranging from $221 to $12,200 showed invoices
that were received before the date of the procurement action, indicating possible unauthorized
commitments. The procurement unit requested new invoices with later dates from the vendors,
and the financial management office processed the payments. Documentation in the files is
incomplete and does not explain why the original invoices predated the purchase orders.

   Recommendation 34: Embassy Moscow, in coordination with the Bureau of
   Administration, should review its unauthorized commitments to determine whether
   ratification is authorized and take action accordingly. (Action: Embassy Moscow, in
   coordination with A)
                                       37
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Advance Acquisition Planning

        The mission lacks an advance acquisition plan that defines procurement priorities. With
funding often available only late in the fiscal year, mission offices have not anticipated
procurements and planned ahead. Department guidelines in 14 FAH-2 H-320 require advance
acquisition plans for the effective use of public funds and for efficient scheduling of the
acquisition workload. Unplanned procurements result in limited competition, hastily prepared
statements of work that do not fulfill requirements, and waste of government funds.

   Recommendation 35: Embassy Moscow should prepare an annual advance acquisition
   plan. (Action: Embassy Moscow)

Trafficking in Persons Monitoring

        Mission contracts contain the required Federal Acquisition Regulation 52.222-50 clause,
Combating Trafficking in Persons. However, because of insufficient training, contracting
officers and contracting officer’s representatives lack awareness of their monitoring
responsibilities outlined in the Office of the Procurement Executive Procurement Information
Bulletin No. 2011-09. Without a structured trafficking in persons monitoring program, mission
contractors may be engaging in illegal trafficking in persons activities contrary to the
Department’s zero tolerance policy for recipients of Federal funds.

   Recommendation 36: Embassy Moscow, in coordination with the Bureau of
   Administration, should implement a trafficking in persons monitoring program. (Action:
   Embassy Moscow, in coordination with A)

Contract Management

       The embassy does not have procedures to assign and regularly update contract
management responsibilities. Contract files were missing nomination requests, appointment
memos, and evidence of current certification for contracting officer’s representatives. As
required in the Department of State Acquisition Regulation 642.270, contracting officers must
designate formally and in writing contracting officer’s representatives. Without formal
designation, embassy personnel who work on contract management do not have authority to
review invoices and monitor contractor performance.

   Recommendation 37:          Embassy Moscow should implement a system to designate trained
   contracting officer’s representatives for all contracts. (Action: Embassy Moscow)

Housing

        OIG questionnaires noted residents’ dissatisfaction with the Rosinka housing compound,
located at least a 1-hour commute from the embassy. The embassy owns 44 townhouses in the
gate-guarded community. Since the units were purchased in 1994, traffic congestion in Moscow
has increased significantly. The commute sometimes exceeds 2 hours, especially during winter.
A one-way commute time of 45 minutes for housing abroad is considered reasonable per 15
FAM 252.3.

                                       38
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        At the time of the inspection 18 Rosinka residences were vacant. The embassy pays $910
per month per unit in condominium fees whether the residences are occupied or not. Because of
recurring appeals, the interagency housing board has stopped assigning people to the compound
unless they explicitly request the assignment. Although Rosinka represents less than 15 percent
of the embassy’s housing pool, it accounted for 47 percent of all formal appeals to the housing
board between 2008 and 2012. In addition, morale suffered when appeals by contractors living at
Rosinka were denied while appeals from direct-hire employees were approved.

        Leasing and purchasing property must be done through Russia’s diplomatic service
bureau, a cumbersome time-consuming process. This past year, the embassy tried unsuccessfully
to locate a suitable apartment building to replace Rosinka. Although embassy management and
the housing board favor disposal of Rosinka housing, in February the embassy requested that
OBO proceed with a $2.3 million renovation to some of the units. Guidelines in 15 FAM 512.1
require posts to review U.S. Government-owned and long-term leased properties annually to
identify those excess to requirements or underutilized and submit recommendations for disposal.
Given the difficulties dealing with real property in Russia, the embassy and OBO may consider
exchanging or selling a few units at a time. Keeping the Rosinka housing compound with its
many vacant units is a waste of U.S. Government funds for fees and maintenance and negatively
affects community morale.

   Recommendation 38: Embassy Moscow, in coordination with the Bureau of Overseas
   Buildings Operations, should submit a cable designating the Rosinka compound housing as
   underutilized and coordinate a plan with the Bureau of Overseas Buildings Operations to
   dispose of the compound. (Action: Embassy Moscow, in coordination with OBO)

       The embassy leases 40 townhouses at the Pokrovsky Hills complex, where the Anglo-
American School is located. Leases for these residences are the most expensive of any in the
housing pool at $128,000 each per year. For the coming year, with most of the housing
assignments already made, the housing office anticipates that approximately 10 of the homes will
remain unassigned. The housing board favors keeping the vacant units in the pool to give the
embassy flexibility in making assignments in the future. Regulations in 15 FAM 313.5 allow the
embassy to retain leases between occupants on vacant units for a maximum of 90 days unless a
longer period is approved by OBO. Keeping the units vacant for a year would cost more than $1
million in U.S. Government funds. At the time of the inspection, no units exceeded the 90-day
vacancy limitation.

   Recommendation 39: Embassy Moscow should terminate leases for unneeded residences
   at Pokrovsky Hills and seek approval from the Bureau of Overseas Buildings Operations for
   retaining units that will be vacant for more than 90 days. (Action: Embassy Moscow)

         Residential lease files in Moscow are disorganized and incomplete. In addition, the
housing section does not have copies of the purchase documents and land use agreement for the
Rosinka housing compound. The files lack post occupational, safety, and health officer
certifications required by 15 FAM 352(4) and regional security office approvals required by 12
FAM 333.1. No system exists for the housing office to verify that all records are included.
Because the Russian Government maintains one umbrella lease for all embassy leases, separate
files are not kept for each residential unit, making it difficult to verify information. Without
written records to document whether properties are free of critical safety, health, and security
                                       39
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

hazards before occupancy, employees and family members face risk of injury. In addition, the
Department requires complete documentation when a property is the subject of litigation.

   Recommendation 40: Embassy Moscow should include all required documentation in the
   residential lease files. (Action: Embassy Moscow)

Motor Pool

       Chauffeurs and incidental drivers at Embassy Moscow and Consulates General
Yekaterinburg and Vladivostok do not consistently inspect vehicles and complete the daily and
weekly preventive maintenance checklists included in the Daily Vehicle Use Record (OF-108) as
required by 14 FAM 436.1. Drivers ignore the requirement to prepare paperwork because of lax
oversight. If mechanical problems and safety deficiencies are not identified promptly,
government vehicles are damaged and passengers placed at risk.

   Recommendation 41: Embassy Moscow should require all drivers to inspect vehicles and
   complete the daily and weekly preventive maintenance checklists. (Action: Embassy
   Moscow)

        Many employees in Moscow expressed confusion regarding motor pool policies for staff
and visitors and questioned charges for other authorized use. The American Embassy
Community Association (AECA) provides motor pool services for official and personal use to
augment the embassy’s limited resources. During the inspection, the embassy was drafting an
updated motor vehicle policy to reflect significant changes since it was last issued in October
2011. In accordance with 14 FAM 432.5, missions must review their motor vehicle policies at
least annually and republish them to incorporate changes. Without a clear, up-to-date motor
vehicle policy, mission personnel may not be treated equitably and motor pool resources may be
used for unauthorized purposes.

   Recommendation 42: Embassy Moscow should implement procedures to annually
   review, update, and republish a countrywide motor vehicle policy. (Action: Embassy
   Moscow)

Facilities Management

         ICASS Customer Satisfaction Survey scores for 2013 in Moscow exceed the worldwide
averages for both residential and nonresidential building operations and maintenance. The LE
staff is supplemented by cleared American contractors who handle maintenance functions in the
secure areas of the chancery.

Work Orders

        In Moscow, materials and their costs are not being recorded when work orders are closed
in the Work Orders for Windows system. The work orders are not completed properly because
the facilities maintenance section does not have a dedicated work order clerk to coordinate the
process. Table 3.10 in the Web.PASS Work Orders for Windows User Manual and 15-FAH-1
Exhibit H-114.3 require facilities managers to track the materials used and their costs for each

                                      40
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

work order. Without accurate records of supplies used and expenditures, facilities managers do
not have proper justification to support budget submissions.

     Informal Recommendation 42: Embassy Moscow should implement a system to include
        materials and their costs in maintenance and repair work order records.

Safety, Health, and Environmental Management

         Drivers at the embassy and Consulate General Vladivostok regularly work more than 10
hours per day in violation of 14 FAM 432.4 c.(3). Duty hours for drivers should not exceed 10
hours per day as prescribed by the Department’s Motor Vehicle Safety Management Program.
The violations indicate poor scheduling or an insufficient number of drivers for the level of
motor pool services provided. Driver fatigue from excessive duty hours could result in injuries or
fatalities from motor vehicle accidents.

   Recommendation 43: Embassy Moscow should limit work hours for drivers to a
   maximum of 10 hours per day. (Action: Embassy Moscow)

Information Technology and Information Management

        Mission Russia’s IM program successfully meets the needs of more than 1,200
customers. However, the program can improve guidance and support to the consulates general,
as well as management controls. Embassy Moscow’s IM officer is tasked with overseeing the IM
program and providing support and oversight to the consulates at St. Petersburg, Yekaterinburg,
and Vladivostok.

       The embassy’s IM staffing levels are sufficient, but the consulates general frequently
experience staffing gaps because of rotations. IM personnel at the consulates general reach out to
IM management in Moscow for advice and guidance on issues, but advice is not always
forthcoming or timely. Once the OIG team raised this issue, IM management started initiatives to
improve communication and support to the consulates general. During the OIG inspection, the
management started to institute a regional information systems security officer support to assist
the consulates general IM staff with information security duties.

        The IM program consists of classified and Sensitive But Unclassified networks, dedicated
Internet networks, radio, telephone, mail, and classified and unclassified pouch operations.
Classified computer and pouch operations are limited to the embassy. The OIG team reviewed
the operational and security aspects of the program and found areas that need improvement, as
discussed below. Others are covered in the classified annex of this report. The mission
expeditiously addressed some of the issues during the inspection. Inspectors counseled Embassy
Moscow and the consulates general IM staff on issues such as tracking computer and telephone
maintenance activities and maintaining current standard operating procedure documents.

Information Technology Tasks and Projects

        Embassy Moscow assigns IM tasks and projects informally, without adequate
documentation. The IM staff is diligent and shows great desire to provide optimal customer
service and complete assigned tasks. However, IM management needs to institute structured task
                                       41
                           SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

      and project tracking processes for the staff to follow. When the OIG team asked for the status of
      ongoing projects and tasks, IM management was not able to provide documents. Ongoing
      projects include wireless device monitoring, software installation, a missionwide emergency and
      evacuation radio network implementation, and information communications center repair. The
      consulates general do not have access to project status updates. Documented processes are useful
      for resource planning, as well as collaboration with consulates general IM staff.

             Informal Recommendation 43: Embassy Moscow should implement a system to assign
                and track information management projects.

      American Employees Community Association Network

              Embassy Moscow IM personnel manage the AECA network, but the system has not been
      certified and accredited. AECA operates a network that collects and stores personally identifiable
      information. The information includes members’ names and addresses and the dates of birth of
      dependents. The Federal Information Security Management Act of 2002 requires systems to
      undergo a security review to ensure appropriate security controls are in place to protect
      information integrity and confidentiality. Certifying and accrediting the network will accomplish
      this objective.

              Based on a July 2012 service-level agreement between AECA and the embassy, IM
      personnel are responsible for the association’s network security. This arrangement makes the
      embassy and the Department liable in the event of a data breach. The embassy assumed oversight
      of the network to restrict its management to cleared U.S. citizens. At most embassies, the
      management of an association’s network is the responsibility of the association’s employees
      rather than the U.S. Government.

          Recommendation 44: Embassy Moscow should certify and accredit the American
          Embassy Community Association network. (Action: Embassy Moscow)
[Redacted] (b) (5)




      International Voice Gateway

             Consulate General Vladivostok pays about $13,000 a month for unused international
      voice gateway (IVG) lines. IVG provides a U.S. dial tone to users at overseas missions to reach
      Department annexes, place toll-free calls, and use calling cards from overseas. In the past, the
      IVG lines were an important part of communication. Emerging voice over Internet protocol
      technologies have diminished the need for IVG lines. A recent telephone upgrade in Vladivostok
                                             42
                                 SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

moved the IVG codes to a new technology infrastructure and made the IVG service obsolete.
The new infrastructure NetBox uses secure voice over Internet protocol technology. The
consulate IM staff has initiated processes to eliminate IVG service, but there is no established
timeline for completing this process.

   Recommendation 46: Embassy Moscow, in coordination with the Diplomatic
   Telecommunications Service Program Office, should cancel international voice gateway
   service in Consulate General Vladivostok. (Action: Embassy Moscow, in coordination with
   DTS-PO)

        Similarly, Embassy Moscow has 24 IVG lines but may not need as many of these costly
lines. Consulates General St. Petersburg and Yekaterinburg are in the process of replacing their
IVG lines with the upgraded technology. The embassy could save money by reducing the
number of IVG lines.

     Informal Recommendation 44: Embassy Moscow should conduct a needs analysis for
        international voice gateway services and reduce the number of lines.




                                       43
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Quality of Life
        Employees assigned to Mission Russia, where the standard tour of duty is 2 years with
one rest and recuperation trip, receive a hardship differential of 15 percent in Moscow and St.
Petersburg, 25 percent in Yekaterinburg, and 30 percent in Vladivostok. Commutes are difficult
and security threats are common. Employees use local medical facilities for only the most basic
procedures and often require medical evacuation for even minor medical treatment.
Opportunities for family member employment are numerous inside the mission, but not on the
local economy.

        Despite these difficulties, many employees find that the interesting work alleviates the
challenges of day-to-day living. Staff housing and office facilities vary in quality and
convenience, but are generally good. The international schools in Moscow and St. Petersburg are
highly rated, and consumer goods, restaurants, and cultural outlets abound.

Health Unit

       The embassy community holds the Moscow health unit in high regard. Moscow’s
regional medical officer is responsible for the consulates general in St. Petersburg and
Yekaterinburg, as well as Embassy Helsinki. In 2012, no health unit personnel visited
Yekaterinburg, which lacks quality medical care and English-speaking doctors. The lack of visits
from Moscow medical personnel negatively affects staff morale, as reflected by low scores on
the quality of life surveys for medical support from Yekaterinburg staff. The Office of Medical
Services regional medical travel policy states that medical staff with regional responsibilities
should discuss their regional travel plans with regional health units and management in
developing a quarterly travel plan.

   Recommendation 47:         Embassy Moscow should instruct regional medical personnel to
   develop quarterly travel plans in coordination with the deputy chief of mission and minister
   counselor for management. (Action: Embassy Moscow)

        Consulate General Vladivostok receives medical services from the regional medical
office in Seoul and the regional psychiatrist in Beijing. Although the consulate general receives
satisfactory medical services from these offices, the regional psychiatrist in Beijing does not
regularly brief medical staff on issues that may affect consulate general morale and operations.
As a result, the Ambassador, who is responsible for the overall well-being of the Vladivostok
official community, does not have full visibility into the welfare of those under his charge. This
objective can be accomplished by transferring responsibility for Consulate General Vladivostok
to the regional psychiatrist in Moscow.

   Recommendation 48: The Office of Medical Services should transfer regional
   responsibility for mental health services at Consulate General Vladivostok from Embassy
   Beijing to Embassy Moscow. (Action: MED)




                                       44
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Community Liaison Office

        The community liaison office (CLO) is well regarded by the embassy community. The
coordinators are cross-trained to provide the full range of community services. The CLO
coordinators meet with the DCM monthly and attend weekly country team meetings on a rotating
basis. Coordinators work closely with the other management units in an effort to address
community concerns. AECA provides $6,000 annually to support CLO-sponsored events.

       Newcomer orientation is the only area where the CLO fell short in quality of life scores.
Embassy Moscow no longer conducts a consolidated newcomers program, relying instead on
individual, section-by-section briefings that can take weeks to complete. As a result, many
employees are not aware of the mission’s goals and activities.

     Informal Recommendation 45: Embassy Moscow should resume regularly scheduled
        newcomer orientation programs.

        In St. Petersburg, the newly-hired CLO coordinator works 24 hours per week. She is well
qualified and full of ideas to enhance community spirit. Consulate General Vladivostok recently
hired a part-time CLO coordinator after the position was vacant for several years because of the
absence of family members. She meets regularly with the consul general and management officer
and is scheduled to take the CLO training this fall. After more than 5 years without a
coordinator, Consulate General Yekaterinburg has filled the position and reestablished the much-
needed office.

        The CLO coordinator in Moscow was collecting money for community tours on behalf of
the in-house tour operator that is not open every day. Also, the CLO coordinator in St.
Petersburg was holding a small amount of cash for community events in her office, raised
through the sale of baked goods and nominal gifts received from consulate officers. According to
2 FAM 113.7-2, CLO coordinators should handle funds through a recreation association or local
bank account. During the inspection, Moscow’s CLO coordinator took management-approved
steps to ensure the proper handling and safeguarding of travel operator funds, and the St.
Petersburg CLO no longer holds funds. Although the CLO in Moscow can rely on the well-
funded employee association to support community events, the small consulates general have no
such funding source. The OIG team suggested to embassy management that it work with the
Moscow association to find an appropriate mechanism for providing the consulates general with
small annual donations.

Overseas Schools

       [Redacted] (b) (5), [Redacted] (b) (6)
                                                             The school received high marks on
OIG questionnaires and contributes positively to recruitment of American employees. Founded
in 1948, the school operates under the umbrella of official diplomatic sponsorship by the
American, Canadian, and British Embassies. Teachers enjoy limited diplomatic privileges and
immunities based on reciprocal agreements, and the school operates as an unincorporated
diplomatic entity, sharing a close relationship with the embassy that reflects its Soviet-era
origins. The school’s status as a diplomatic institution affords the embassy influence over

                                         45
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

admissions and management but also requires monitoring to ensure that matters relating to taxes,
duty-free imports, disposal of property, and personnel comport with local law.

       School quality at the consulates general is mixed.[Redacted] (b) (5), [Redacted] (b) (6)
                                                                                     offer limited
schooling options and services, none of which are rated as adequate by the Office of Overseas
Schools.

American Embassy Community Association

         AECA has experienced several years of internal turbulence. Ongoing internal
disagreements are taking a toll on embassy morale. AECA operates one of the largest employee
associations of any overseas mission. It provides a range of services, including a fitness center,
cafeteria, beauty salon, video club, dry cleaning facility, transportation, and auto repair services,
among others. In May 2010, AECA’s general manager was forced to resign for improper
activities, followed by the resignation of two of its accountants. This situation prompted an
internal review by the Bureau of Administration’s Office of Commissary and Recreation Affairs.
After these events, the board and management devoted considerable effort to reestablishing
AECA’s financial framework.
        In recent months, there has been considerable discussion within the community about
AECA operations. Some embassy employees are dissatisfied with the cost of AECA services and
question the policy of allowing LE staff members to use the fitness center and facilities. These
employees, including some AECA board members, take issue with LE staff using the facilities at
all, while others view excluding LE staff from facilities as detrimental. There is also
disagreement between the AECA board, AECA management, and the embassy’s management
over association operations. The OIG team counseled embassy leadership on the need to address
these issues quickly and decisively for the sake of community morale and suggested that a
working group be established to recommend a way forward to the Ambassador.

         AECA is delinquent in submitting its 2012 annual financial statement, management
letter, and audit. The unaudited net income statement reflected a net loss of $11,214 on total
income of $2.6 million. The balance sheet for the period ending April 30, 2013 showed retained
earnings of $1.2 million. AECA has not provided the Bureau of Administration with a capital
investment strategy for its considerable reserves, as required by 6 FAM 531.4, to include
replacement of its 15 vehicles.

   Recommendation 49: Embassy Moscow should require the American Embassy
   Community Association to submit a capital investment strategy to the Bureau of
   Administration. (Action: Embassy Moscow)

         Because of AECA operating losses over the past 2 years, embassy management has
waived provisions to the licensing agreement which stipulate that the association pay for utilities
and space allocated on embassy grounds for AECA activities. As required by 6 FAM 524, the
cost of utilities such as electricity, water, telephone, and heating and cooling services are
reimbursable to the U.S. Government. The embassy plans to assess the feasibility of charging for
utilities over the next 12 months if AECA returns to profitability.


                                        46
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        The AECA account at Raiffeisen Bank with a ruble equivalent balance of $10,000 has
been frozen for over 2 years because AECA’s status as an instrumentality of the Federal
government is not recognized by the Russian Government. As a result, AECA pays local staff in
cash, with most payments made in local currency through the embassy suspense deposit account.
In addition, the signatory on the account has since left Russia and the new treasurer and board
president need to sign new signature cards to reopen the account. Per 6 FAM 531.2, associations
are authorized to maintain local currency bank accounts for current expenditures.

     Informal Recommendation 46: Embassy Moscow should assist the American Embassy
        Community Association in recovering its deposits at the Raiffeisen Bank and
        establishing a legal ruble account.

        The AECA transportation office is consistently late turning in cash receipts to the AECA
cashier, and it is not clear how customers pay for transportation services. Some pay at the
transportation office or pay the drivers directly, while others pay the AECA cashier or wait to
receive an invoice before paying. The transportation office last submitted $4,500 in receipts on
May 23, 2013, which covered a 3-week period. All other AECA cost centers turn in their receipts
daily with their report from the QuickBooks Enterprise system. Guidance in 6 FAM 531,
mandates that all funds, cash, collections, financial information, property, and other resources be
appropriately safeguarded to prevent misuse and misappropriation. Sound management controls
require that receipts be accounted for daily and turned over to the cashier to minimize the risk of
losing or misplacing funds.

     Informal Recommendation 47: Embassy Moscow should direct the American Embassy
        Community Association transportation office to turn in its receipts daily to the cashier.

        AECA has not established a vehicle maintenance or driver training program. AECA
supplements the motor pool services provided by the embassy with a fleet of 15 vehicles and
contract drivers, and the embassy has proposed that AECA assume responsibility for
transportation of embassy dependents to schools. As a separately managed but important part of
the embassy’s transportation services, it is imperative that adequate vehicle maintenance and
driver safety standards be established for the AECA motor pool. The absence of safety and
maintenance standards could place embassy employees and dependents at risk.

     Informal Recommendation 48: Embassy Moscow should require the American Embassy
        Community Association to develop vehicle maintenance and driver safety standards.

        Some LE staff mechanics work on personal vehicles during embassy business hours
without authorization to do so. AECA maintains its vehicle fleet and offers maintenance and
repair services for employees’ personal vehicles by using the embassy’s workshops and
mechanics outside normal business hours. AECA does not have contracts with the embassy
mechanics to provide vehicle maintenance services for AECA. The OIG team advised AECA
management of this issue. Further, mechanics have not requested embassy approval to engage in
outside employment as required in the local employee handbook and 3 FAM 4123 and 4126.
This exposes the embassy and the employee to potential liability in the event of an on-the-job
accident or faulty repair of a personal vehicle.


                                       47
                           SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED

Recommendation 50: Embassy Moscow should require motor pool mechanics who work
for the American Embassy Community Association to request authorization to engage in
outside employment and prohibit repair activity during working hours. (Action: Embassy
Moscow)




                                 48
                     SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Management Controls
       Embassy Moscow conducted a risk analysis assessment prior to the preparation of the
annual submission of the chief of mission management controls statement of assurance to
include input from the three consulates general. Although neither the chief of mission’s
assurance statement, completed on July 26, 2012, nor the risk survey identified any major control
weaknesses, the inspectors found many internal control weaknesses that require attention.

Representation Allowance

         Representation vouchers reviewed by the OIG team included necessary supporting
documentation, except that local purchase receipts were not translated from Russian into English.
In accordance with 4 FAH-3 H-394.2-9 b.3, receipts must be translated into English in sufficient
detail to identify the goods or services procured and the purpose of the procurement. To avoid
potential fraud or falsification of receipts, it is essential that receipts be translated into English.

     Informal Recommendation 49: Embassy Moscow should implement procedures to
        translate representational receipts written in Russian into English.

Transporting Cash at the Consulates General

        The embassy has not issued written procedures for transporting cash to and from local
banks at Consulates General St. Petersburg and Vladivostok. In accordance with 4 FAH-3 H-
393.4-6, the embassy is required to coordinate with the regional security office to provide
adequate security to the cashier for cash transportation to and from the local bank. Typically,
embassies employ a security firm or a local bank to transport cash. The absence of a procedure
for secure cash transportation could lead to theft or loss of U.S. Government funds.

   Recommendation 51: Embassy Moscow should prepare a written policy that describes
   security procedures applicable to cash transportation at the consulates general in St.
   Petersburg and Vladivostok. (Action: Embassy Moscow)

Separation of Duties

        The three consulates general do not have in place proper separation of duties between the
payment, property management, and procurement functions, as required by 4 FAM 042. For
example, in Yekaterinburg the property receiving clerk also receives invoices and in Vladivostok
the procurement unit is the designated billing office for invoices. In St. Petersburg, the
procurement assistants consolidate purchase orders, receiving reports, and invoices for local
purchases before forwarding packages to the financial management assistant for payment.
Similarly, the motor pool supervisor issues the official gasoline credit cards to the drivers,
collects the receipts, and verifies the monthly invoice. Per 4 FAH-3 H-413.5, purchasing and
receiving goods and services should be separated from examining invoices to ensure prudent
internal controls. Violation of separation of duties increases the risk of error, waste, and
wrongful acts.



                                        49
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

   Recommendation 52: Embassy Moscow should designate the financial management
   offices at the consulates general as the designated billing offices for payment of the
   consulates general invoices. (Action: Embassy Moscow)

   Recommendation 53: Embassy Moscow should conduct a thorough review of
   procurement, receiving, and payment processes to bring them into compliance with
   applicable regulations. (Action: Embassy Moscow)

        Consulate General Vladivostok assigned subcashier duties to the procurement assistant,
in addition to his purchasing duties, to make cash purchases more convenient. According to 4
FAH-3 H-413.5, purchasing goods and services and disbursing funds should be separated for
prudent internal controls. Improper separation of duties increases the risk of error, waste, or
wrongful acts.

     Informal Recommendation 50: Embassy Moscow should direct Consulate General
        Vladivostok to revoke the procurement assistant’s subcashier designation.

        The property assistant in Vladivostok single-handedly manages all areas of property
management. Vacancies in LE staff positions in the management section have made separation
of duties difficult. According to 14 FAH-1 H-112.2j., a sound management control system
ensures that property recordkeeping duties are separated from physical inventory duties, stock
pulling duties, and property disposal duties. Improper separation of duties increases the risk of
error, waste, or wrongful acts.

   Recommendation 54: Embassy Moscow should implement adequate separation of duties
   in property management operations at Consulate General Vladivostok. (Action: Embassy
   Moscow)

Subcashier Cash Verifications

        Supervisors are not conducting unannounced cash verifications on a regular basis, as
required by 4 FAH-3 H-397.2-3. An unannounced verification of subcashier funds is required at
least monthly when the advance amount is equivalent to $1,000 in U.S. currency or more and
quarterly for amounts less than $1,000. The consulates general management officers must
designate personnel to verify subcashier levels who are adequately trained in cashier operations.

     Informal Recommendation 51: Embassy Moscow should require the American
        supervisors of subcashiers at Consulates General Yekaterinburg and Vladivostok to
        perform unannounced cash reconciliations and submit those verifications monthly or
        quarterly, as required.

Voucher Cancelation

        Consulate General St. Petersburg does not cancel original voucher and invoice
documentation at the time of payment. In accordance with 4 FAM 416 and 4 FAH-3 H-425,
voucher processes require adequate controls to prevent improper or duplicate payments. It is
essential that original voucher and invoice documentation be canceled at the time of payment to
show that payment was made and to prevent resubmission of invoices for payment at a later date.
                                       50
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

     Informal Recommendation 52: Consulate General St. Petersburg should institute
        procedures to cancel all voucher processing documents at the time of payment.

Gift Monitoring

        Embassy Moscow does not have a mission-specific policy on the acceptance and
disposition of gifts presented to mission employees or a system to track them. A tracking system
under the oversight of the mission gifts officer will help ensure that gifts are not accepted from
prohibited sources and that legitimate gifts are disposed of in accordance with Department
policy. This system will help protect the U.S. Government from potential embarrassment and any
perception of the use of official office for personal gain.

     Informal Recommendation 53: Embassy Moscow should establish a mission-specific
        policy on the proper acceptance and handling of gifts and a tracking mechanism for
        recording their receipt and ultimate disposition.

Consular Management Controls

        Accountable consular officer roles were assigned to untenured officers in Moscow,
including distribution and accountability for visa foils. As soon as this issue was brought to the
attention of the consul general, he took corrective action and reassigned accountable consular
officer duties to tenured officers, except in the American citizens services unit.

     Informal Recommendation 54: Embassy Moscow should assign all accountable officer
        and backup accountable officer duties to tenured officers.

        The American citizens services chief in Moscow has been the primary accountable
officer for both visa and citizens services fees, which are handled by different consular
subcashiers. A tenured officer working in the visa unit would be more familiar with visa
operations and better positioned to serve as accountable consular officer for visa fees.

     Informal Recommendation 55: Embassy Moscow should assign a tenured visa officer as
        accountable consular officer for visa fees.

       The consular section processes nonimmigrant visa cases on two floors [Redacted] (b) (5)

                                                                         OIG inspectors also
identified other minor discrepancies in consular management controls, and the consular
managers in all posts took appropriate corrective actions.

        The OIG team made a large number of informal recommendations. While individually,
they may not be significant, collectively, they can have a significant impact in improving overall
efficiency, effectiveness, and accountability within the mission. With pending turnover of some
key staff members who are critical to implementing recommendations and no requirement to
respond regarding action taken to implement each of the informal recommendations, a system to
track overall implementation would ensure they are carried out.


                                        51
                            SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED

Recommendation 55: Embassy Moscow should establish a process to track
implementation of each informal recommendation in this report. (Action: Embassy Moscow)




                                 52
                     SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: Embassy Moscow should formalize and implement a structured program
to provide first- and second-tour officers orientation to and involvement in the broad range of
work of the mission to enhance the development of their professional skills. (Action: Embassy
Moscow)

Recommendation 2: Embassy Moscow should implement a plan to improve communication
and coordination with the three consulates general, including more regular digital
videoconferences, phone calls, and visits, as well as short-term details, and longer-term
assignments. (Action: Embassy Moscow)

Recommendation 3: Embassy Moscow, in coordination with the Bureau of International
Narcotics and Law Enforcement Affairs and the Bureau of Human Resources, should abolish
position number 10-297000 at the conclusion of the incumbent’s tour. (Action: Embassy
Moscow, in coordination with INL and DGHR)

Recommendation 4: Embassy Moscow should abolish position numbers 97-444100 and
101063. (Action: Embassy Moscow)

Recommendation 5: Embassy Moscow, in coordination with the Bureau of International
Narcotics and Law Enforcement Affairs and the Bureau of European and Eurasian Affairs,
should assign responsibility for mandated reporting to another embassy section and transfer the
related local employee position 100810 to that section. (Action: Embassy Moscow, in
coordination with INL and EUR)

Recommendation 6: Embassy Moscow should establish written guidance identifying which
current reporting products should be preserved and sent by record email. (Action: Embassy
Moscow)

Recommendation 7: Embassy Moscow, in coordination with the Bureau of International
Information Programs, should implement an audience building strategy for its social media
activities. (Action: Embassy Moscow, in coordination with IIP)

Recommendation 8: Embassy Moscow, in coordination with the Bureau of European and
Eurasian Affairs and the Bureau of Educational and Cultural Affairs, should review the language
requirement for the English language officer position in the 2014 review of language-designated
positions, with an eye toward possible reduction. (Action: Embassy Moscow, in coordination
with EUR and ECA)

Recommendation 9: Embassy Moscow, in coordination with the Bureau of Human Resources,
should determine the appropriate grade for the public affairs officer positions in Consulates
General Yekaterinburg and Vladivostok and request a change in position grades, as appropriate.
(Action: Embassy Moscow, in coordination with DGHR)

Recommendation 10: Embassy Moscow should follow the requirements of Grants Policy
Directive Number 16 regarding the designation of certified grants officer representatives.
(Action: Embassy Moscow)

                                       53
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 11: Embassy Moscow should determine which officers in the consulates
general and embassy sections need to obtain grants officer representative certification to
facilitate the proper monitoring of public diplomacy and non-public diplomacy grants, and
should obtain the required certification, as appropriate. (Action: Embassy Moscow)

Recommendation 12: Embassy Moscow should establish a formal orientation and ongoing
training program for consular adjudicating officers. (Action: Embassy Moscow)

Recommendation 13: Embassy Moscow should require that visa inquiries be referred to the
consular section’s public liaison unit or to the public inquiries email boxes at the consulates
general for response. (Action: Embassy Moscow)

Recommendation 14: Embassy Moscow should require supervisory officers to complete
timely reviews of visa issuances and refusals. (Action: Embassy Moscow)

Recommendation 15: The Bureau of Consular Affairs should issue guidance clarifying
standards to be used in adjudicating Summer Work Travel program visas. (Action: CA)

Recommendation 16: The Bureau of Educational and Cultural Affairs should send a
representative to Embassy Moscow to review the performance of sponsor and third-party
representatives for compliance with regulatory requirements for job placement. (Action: ECA)

Recommendation 17: Embassy Moscow should direct Consulate General Vladivostok to
provide required support to the consular agent and keep him informed about its activities in
Sakhalin. (Action: Embassy Moscow)

Recommendation 18: Embassy Moscow should implement a plan to improve maintenance
and the usability of consular work space in the existing office building in Moscow. (Action:
Embassy Moscow)

Recommendation 19: Embassy Moscow should solicit suggestions from first- and second-tour
consular section officers to improve consular efficiencies and take action as appropriate. (Action:
Embassy Moscow)

Recommendation 20: The Bureau of European and Eurasian Affairs, in coordination with the
Bureau of Human Resources, should assign an entry-level officer with consular experience to
position number 30-003012 in Consulate General Vladivostok. (Action: EUR, in coordination
with DGHR)

Recommendation 21: The Bureau of Consular Affairs, in coordination with Embassy
Moscow, the Bureau of European and Eurasian Affairs, and the Bureau of Human Resources,
should eliminate position 30-401004 in Consulate General St. Petersburg. (Action: CA, in
coordination with Embassy Moscow, EUR, and DGHR)

Recommendation 22: Embassy Moscow, in coordination with the Bureau of Consular Affairs,
should require that a commissioned consular officer be designated to back up consular officers in
Consulate General Vladivostok. (Action: Embassy Moscow, in coordination with CA)



                                       54
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 23: Embassy Moscow should monitor Russian compliance with the bilateral
visa agreement and recommend reciprocal changes to the Department of State as needed.
(Action: Embassy Moscow)

Recommendation 24: Embassy Moscow, in coordination with the Bureau of Overseas
Buildings Operations and the Bureau of European and Eurasian Affairs, should move the public
affairs section in St. Petersburg into the consulate building. (Action: Embassy Moscow, in
coordination with OBO and EUR)

Recommendation 25: Embassy Moscow should document and refer overdue debts to the
Bureau of the Comptroller and Global Financial Services for collection action. (Action:
Embassy Moscow, in coordination with CGFS)

Recommendation 26: Embassy Moscow should conduct a management review to document
whether embassy accommodation exchange is beneficial and cost effective and have the
Ambassador make a formal determination. (Action: Embassy Moscow)

Recommendation 27: Embassy Moscow should process value-added tax claims for the last 2
fiscal years for Consulate General Vladivostok’s official purchases. (Action: Embassy Moscow)

Recommendation 28: Embassy Moscow should credit the Bureau of Overseas Buildings
Operations maintenance and repair account allotments for expenditures that were improperly
charged and debit the correct allotments. (Action: Embassy Moscow)

Recommendation 29: Embassy Moscow should submit retail price surveys to the Bureau of
Administration for the embassy and the consulates general. (Action: Embassy Moscow, in
coordination with A)

Recommendation 30: Embassy Moscow should review the job descriptions for regular drivers
at the embassy and consulates general for accuracy and, where appropriate, submit
reclassification requests to the Regional Support Center Frankfurt, Germany. (Action: Embassy
Moscow)

Recommendation 31: Embassy Moscow should transfer all personal property to the control of
the general services property section and complete an annual inventory for 2013. (Action:
Embassy Moscow)

Recommendation 32: Embassy Moscow should regularly identify and dispose of unneeded
property as required by Department of State regulations. (Action: Embassy Moscow)

Recommendation 33: Embassy Moscow should designate a cleared U.S. Government
employee to sign the receiving reports for securely procured items. (Action: Embassy Moscow)

Recommendation 34: Embassy Moscow, in coordination with the Bureau of Administration,
should review its unauthorized commitments to determine whether ratification is authorized and
take action accordingly. (Action: Embassy Moscow, in coordination with A)

Recommendation 35: Embassy Moscow should prepare an annual advance acquisition plan.
(Action: Embassy Moscow)

                                      55
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 36: Embassy Moscow, in coordination with the Bureau of Administration,
should implement a trafficking in persons monitoring program. (Action: Embassy Moscow, in
coordination with A)

Recommendation 37: Embassy Moscow should implement a system to designate trained
contracting officer’s representatives for all contracts. (Action: Embassy Moscow)

Recommendation 38: Embassy Moscow, in coordination with the Bureau of Overseas
Buildings Operations, should submit a cable designating the Rosinka compound housing as
underutilized and coordinate a plan with the Bureau of Overseas Buildings Operations to
dispose of the compound. (Action: Embassy Moscow, in coordination with OBO)

Recommendation 39: Embassy Moscow should terminate leases for unneeded residences at
Pokrovsky Hills and seek approval from the Bureau of Overseas Buildings Operations for
retaining units that will be vacant for more than 90 days. (Action: Embassy Moscow)

Recommendation 40: Embassy Moscow should include all required documentation in the
residential lease files. (Action: Embassy Moscow)

Recommendation 41: Embassy Moscow should require all drivers to inspect vehicles and
complete the daily and weekly preventive maintenance checklists. (Action: Embassy Moscow)

Recommendation 42: Embassy Moscow should implement procedures to annually review,
update, and republish a countrywide motor vehicle policy. (Action: Embassy Moscow)

Recommendation 43: Embassy Moscow should limit work hours for drivers to a maximum of
10 hours per day. (Action: Embassy Moscow)

Recommendation 44: Embassy Moscow should certify and accredit the American Embassy
Community Association network. (Action: Embassy Moscow)

Recommendation 45: [Redacted] (b) (5)


Recommendation 46: Embassy Moscow, in coordination with the Diplomatic
Telecommunications Service Program Office, should cancel international voice gateway service
in Consulate General Vladivostok. (Action: Embassy Moscow, in coordination with DTS-PO)

Recommendation 47: Embassy Moscow should instruct regional medical personnel to develop
quarterly travel plans in coordination with the deputy chief of mission and minister counselor for
management. (Action: Embassy Moscow)

Recommendation 48: The Office of Medical Services should transfer regional responsibility
for mental health services at Consulate General Vladivostok from Embassy Beijing to Embassy
Moscow. (Action: MED)

Recommendation 49: Embassy Moscow should require the American Embassy Community
Association to submit a capital investment strategy to the Bureau of Administration. (Action:
Embassy Moscow)

                                       56
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 50: Embassy Moscow should require motor pool mechanics who work for
the American Embassy Community Association to request authorization to engage in outside
employment and prohibit repair activity during working hours. (Action: Embassy Moscow)

Recommendation 51: Embassy Moscow should prepare a written policy that describes
security procedures applicable to cash transportation at the consulates general in St. Petersburg
and Vladivostok. (Action: Embassy Moscow)

Recommendation 52: Embassy Moscow should designate the financial management offices at
the consulates general as the designated billing offices for payment of the consulates general
invoices. (Action: Embassy Moscow)

Recommendation 53: Embassy Moscow should conduct a thorough review of procurement,
receiving, and payment processes to bring them into compliance with applicable regulations.
(Action: Embassy Moscow)

Recommendation 54: Embassy Moscow should implement adequate separation of duties in
property management operations at Consulate General Vladivostok. (Action: Embassy Moscow)

Recommendation 55: Embassy Moscow should establish a process to track implementation of
each informal recommendation in this report. (Action: Embassy Moscow)




                                       57
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Moscow should periodically review its reporting plans
to keep them relevant and adjust the plans as appropriate.

Informal Recommendation 2: Embassy Moscow should direct the political section to retire its
files consistent with Department of State requirements.

Informal Recommendation 3: Embassy Moscow should issue guidance to Consulate General
Vladivostok on balancing spot and analytical reporting.

Informal Recommendation 4: Embassy Moscow should elevate the existing intellectual
property working group to a body convened by the deputy chief of mission, and the group should
meet on a regular basis.

Informal Recommendation 5: Embassy Moscow should establish a written duty schedule for
evening and weekend work by American and locally employed information office staff.

Informal Recommendation 6: Embassy Moscow should establish guidance to indicate which
after-hours email taskings require immediate action or can wait until the next business day.

Informal Recommendation 7: Embassy Moscow should assign supervision of social media
efforts and the Web site to one of the two assistant information officers.

Informal Recommendation 8: Embassy Moscow should place terms of use on all Mission
Russia social media sites.

Informal Recommendation 9: Embassy Moscow should assign additional translation and
reporting duties to the local staff member primarily responsible for media reaction.

Informal Recommendation 10: Embassy Moscow should perform a cost-benefit analysis of
labor-intensive exchange programs to determine if their value justifies the time spent on them.

Informal Recommendation 11: Embassy Moscow should implement a strategic plan for its
English Access Microscholarship Program, specifying an optimum number and location of sites.

Informal Recommendation 12: Embassy Moscow should include the alumni of the U.S.
Agency for International Development-sponsored exchange programs in its alumni outreach
efforts and provide the Bureau of Educational and Cultural Affairs with a list of such alumni to
facilitate their registration on the International Exchange Alumni Web site.

Informal Recommendation 13: Embassy Moscow should update the talking points and themes
for embassy speakers on the internal mission SharePoint site.
                                       58
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 14: Embassy Moscow should convene an annual conference of
public affairs officers throughout Russia to improve planning and coordination.

Informal Recommendation 15: Embassy Moscow should provide native English speaking
assistance to the public affairs officer in St. Petersburg through an eligible family member, local
hire, or other means.

Informal Recommendation 16: Embassy Moscow should establish procedures to designate
non-public affairs staff to conduct non-public diplomacy digital videoconferences.

Informal Recommendation 17: Embassy Moscow should require consular managers to
establish clear expectations regarding caseload, monitor productivity, and provide feedback to
officers.

Informal Recommendation 18: Embassy Moscow should require consular officers to submit
annual leave requests 3 months in advance.

Informal Recommendation 19: Embassy Moscow should implement a shift schedule for
nonimmigrant visa appointments.

Informal Recommendation 20: Embassy Moscow should train officers to develop expertise in
adjudicating petition-based nonimmigrant visa cases and direct those cases to the officers with
the specialized training.

Informal Recommendation 21: Embassy Moscow should post the worldwide referral policy
and referral forms on the consular intranet Web site.

Informal Recommendation 22: Embassy Moscow should hold separate Visas Viper committee
meetings.

Informal Recommendation 23: Embassy Moscow should set up a rotation schedule for first-
and second-tour consular officers in St. Petersburg to work in the American citizens services
unit.

Informal Recommendation 24: Embassy Moscow should dedicate additional consular
resources for planning and providing American citizens services for the Olympics and
Paralympics.

Informal Recommendation 25: Embassy Moscow should direct the fraud prevention unit to
perform validation studies.

Informal Recommendation 26: Embassy Moscow should perform a validation study on visitor
visas.

Informal Recommendation 27: Embassy Moscow should issue instructions outlining policy
for the consular agent’s contact with local officials.

Informal Recommendation 28: Embassy Moscow should adjust the internal consular rotations
and portfolios to provide better balance of assignments and more continuity.

                                       59
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 29: Embassy Moscow should reassign one entry-level immigrant
visa officer to another unit.

Informal Recommendation 30: Embassy Moscow should redistribute consular supervisory
responsibilities for first- and second-tour officers more evenly among managers.

Informal Recommendation 31: Embassy Moscow should designate the consul general as the
rating officer for the fraud prevention manager.

Informal Recommendation 32: Embassy Moscow should reassign two LE staff members from
the immigrant visa unit to the nonimmigrant visa unit.

Informal Recommendation 33: Embassy Moscow should send one of the two information
management specialists in Consulate General Vladivostok for consular systems training.

Informal Recommendation 34: Embassy Moscow should communicate regularly with the
embassy community on the progress of embassy compound construction projects through written
notices, town hall meetings, and other mechanisms.

Informal Recommendation 35: Embassy Moscow should send the main timekeeper to the
Overseas Payroll and Allowances course offered by the Bureau of the Comptroller and Global
Financial Services.

Informal Recommendation 36: Embassy Moscow should submit invoices to all agencies that
have long-term temporary duty officers assigned in accordance with management procedures.

Informal Recommendation 37: Embassy Moscow should monitor the Equal Employment
Opportunity programs at Consulates General Yekaterinburg and Vladivostok and establish an
Equal Employment Opportunity counselor position in St. Petersburg.

Informal Recommendation 38: Embassy Moscow should update Equal Employment
Opportunity and Federal Women’s programs information on its intranet Web site and embassy
bulletin boards.

Informal Recommendation 39: Embassy Moscow should update and reissue its policy on
outside employment.

Informal Recommendation 40: Embassy Moscow should request a determination from the
Internal Revenue Service regarding employer tax withholding requirements for an American
citizen working as an official residence staff member.

Informal Recommendation 41: Embassy Moscow should create an advance inventory plan for
its 2014 annual personal property inventory in order to meet the March 1 deadline.

Informal Recommendation 42: Embassy Moscow should implement a system to include
materials and their costs in maintenance and repair work order records.

Informal Recommendation 43: Embassy Moscow should implement a system to assign and
track information management projects.

                                     60
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 44: Embassy Moscow should conduct a needs analysis for
international voice gateway services and reduce the number of lines.

Informal Recommendation 45: Embassy Moscow should resume regularly scheduled
newcomer orientation programs.

Informal Recommendation 46: Embassy Moscow should assist the American Embassy
Community Association in recovering its deposits at the Raiffeisen Bank and establishing a legal
ruble account.

Informal Recommendation 47: Embassy Moscow should direct the American Embassy
Community Association transportation office to turn in its receipts daily to the cashier.

Informal Recommendation 48: Embassy Moscow should require the American Embassy
Community Association to develop vehicle maintenance and driver safety standards.

Informal Recommendation 49: Embassy Moscow should implement procedures to translate
representational receipts written in Russian into English.

Informal Recommendation 50: Embassy Moscow should direct Consulate General
Vladivostok to revoke the procurement assistant’s subcashier designation.

Informal Recommendation 51: Embassy Moscow should require the American supervisors of
subcashiers at Consulates General Yekaterinburg and Vladivostok to perform unannounced cash
reconciliations and submit those verifications monthly or quarterly, as required.

Informal Recommendation 52: Consulate General St. Petersburg should institute procedures
to cancel all voucher processing documents at the time of payment.

Informal Recommendation 53: Embassy Moscow should establish a mission-specific policy
on the proper acceptance and handling of gifts and a tracking mechanism for recording their
receipt and ultimate disposition.

Informal Recommendation 54: Embassy Moscow should assign all accountable officer and
backup accountable officer duties to tenured officers.

Informal Recommendation 55: Embassy Moscow should assign a tenured visa officer as
accountable consular officer for visa fees.




                                      61
                          SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                            Name Arrival Date
Ambassador                                      Michael A. McFaul        1/12
Deputy Chief of Mission                           Sheila Gwaltney        7/11
Constituent Posts:
Consul General St. Petersburg                         Bruce Turner       7/11
Consul General Yekaterinburg                                 Vacant
Consul General Vladivostok                            Sylvia Curran      8/10
Chiefs of Sections:
  Management                                       Michael A. Hoza       8/10
  Consular                                             Doron Bard        8/11
  Environmental Science Technology, and
  Health                                          Jonathan Kessler       8/12
  Political                                     Michael Klecheski        8/09
  Economic                                            Stuart Dwyer       8/11
  Public Affairs                                     Jeffrey Sexton     11/12
  Regional Security                           Andriy R. Koropeckyj       8/11
Other Agencies:
   Defense Threat Reduction                   COL Walter P. Jensen       8/11
   Federal Aviation Administration                         Elie Nasr    12/12
  Foreign Agricultural Service                        Holly Higgins      8/12
  Department of Defense                   Brig. Gen. Peter B. Zwack      6/12
  Department of Energy                          Katherine M. Vogler      8/10
  Department of Homeland Security
  Citizenship and Immigration Services               Susan Aikman        8/09
  Department of Homeland Security
  Immigration and Customs Enforcement                 Kirk Bostick       5/11
  Drug Enforcement Administration                  Aaron Caldwell        7/11
  Foreign Commercial Service                     John M. McCaslin        8/10
  Law Enforcement Section                            Jeffrey Waldo      11/12
  Federal Bureau of Investigation                   Don Robinson         2/13
  National Aeronautics and Space
  Administration                                   Thomas Plumb          8/12
  POW/MIA Branch                             Maj. Michael Yuschak        8/11
  U.S. Agency for International
  Development                                    Rebecca Latorroca       8/12
  U.S. Secret Service                                      Vacant      Vacant




                                    62
                        SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
AECA             American Embassy Community Association

CLO              Community liaison office

DCM              Deputy chief of mission

Department       U.S. Department of State

EEO              Equal Employment Opportunity

ESTH             Environment, science, technology, and health

FAH              Foreign Affairs Handbook

FAM              Foreign Affairs Manual

FAST             First- and second-tour

ICASS            International Cooperative Administrative Support Services

IM               Information management

INL              Bureau of International Narcotics and Law Enforcement Affairs

IVG              International Voice Gateway

LE               Locally employed (staff)

OBO              Bureau of Overseas Buildings Operations

OIG              Office of Inspector General

SMART            State Messaging and Archive Retrieval Toolset

USAID            U.S. Agency for International Development




                            63
                SENSITIVE BUT UNCLASSIFIED
 SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




 SENSITIVE BUT UNCLASSIFIED
